<html>
<title> - IRAN AND SYRIA: NEXT STEPS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                       IRAN AND SYRIA: NEXT STEPS 

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 23, 2011

                               __________

                           Serial No. 112-45

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

67-051 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 





















                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director



























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable John Bolton, senior fellow, American Enterprise 
  Institute for Public Policy Research (former U.S. permanent 
  representative to the United Nations and former Under Secretary 
  of State for Arms Control and International Security)..........    11
Mr. Olli Heinonen, senior fellow, Belfer Center for Science and 
  International Affairs, Harvard University (former deputy 
  director general of the International Atomic Energy Agency and 
  head of its Department of Safeguards)..........................    30
Mr. Robert Satloff, executive director, Washington Institute for 
  Near East Policy...............................................    38

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida, and chairman, Committee on Foreign 
  Affairs: Prepared statement....................................     4
The Honorable John Bolton: Prepared statement....................    13
Mr. Olli Heinonen: Prepared statement............................    32
Mr. Robert Satloff: Prepared statement...........................    40

                                APPENDIX

Hearing notice...................................................    78
Hearing minutes..................................................    79
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    81
Written response from Mr. Olli Heinonen to question submitted for 
  the record by the Honorable Russ Carnahan, a Representative in 
  Congress from the State of Missouri............................    82
Questions submitted for the record to Mr. Robert Satloff by the 
  Honorable Russ Carnahan........................................    83


                       IRAN AND SYRIA: NEXT STEPS

                              ----------                              


                        THURSDAY, JUNE 23, 2011

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the committee) presiding.
    Chairman Ros-Lehtinen. I am pleased to convene today's 
hearing. So the committee will come to order. After recognizing 
myself and the ranking member, Mr. Berman, for 7 minutes each 
for our opening statements, I will recognize the chairman and 
the ranking member of our Middle East and South Asia 
Subcommittee for 3 minutes each. And I will then recognize 
members for 1-minute statements if they have one. We will then 
hear from our witnesses.
    Thank you, gentlemen, for being with us. I would ask that 
you summarize your prepared statements in 5 minutes each before 
we move to the questions and answers with members under the 5-
minute rule.
    Without objection, the witnesses' prepared statements will 
be made a part of the record. And members may have 5 days to 
insert statements and questions for the record subject to the 
length limitations in the rules.
    The Chair now recognizes herself for 7 minutes. Today's 
hearing is part of a broader oversight effort by the committee 
to examine U.S. policy options to address the twin threats 
presented by both Iran and Syria. We will continue to be 
engaged in a number of other activities--from roundtable 
conversations with EU, Middle East, and other visiting 
dignitaries and ambassadors to meetings with panels of experts 
on Iran and Syria--to ensure that we do not take our eye off 
some of the most pressing threats to U.S. and global security.
    The date of May 24, 2011, a watershed in our efforts to 
confront the Iranian-Syria axis over their nuclear programs, 
passed with little fanfare. On May 24th, the International 
Atomic Energy Agency (IAEA) issued two damning reports with 
respect to the nuclear programs of Iran and Syria. The first, 
with respect to Iran, cited significant increases in the 
production rate of low enriched uranium. Most concerning, it 
also cited ``current undisclosed nuclear related activities 
involving military related organizations, including activities 
related to the development of nuclear payload for a missile.'' 
Wisconsin Project on Nuclear Arms control estimates that as of 
last April 2011, Iran's stockpile of low enriched uranium 
provides enough material to fuel four nuclear bombs. 
Additionally, the report detailed a list of seven nuclear 
activities exclusive to a nuclear weapons program that Iran has 
refused to explain.
    The report with respect to Syria outlines in detail the 
evidence it has collected of a suspected covert nuclear reactor 
building under construction in Syria which, as we know, was 
destroyed, thankfully, by Israel in September 2007. Syria has 
long denied that it was building a covert nuclear reactor and 
systematically denied the IAEA access to the site.
    The level of specificity in the descriptions of the 
activities and the publicizing of information in each report 
suggests that the IAEA believes its evidence is credible. Thus, 
the nuclear ambitions of both Teheran and Damascus have been 
laid bare.
    And while President Obama has said that Iran's acquisition 
of nuclear weapons is ``unacceptable,'' some in the 
administration appear resigned to the eventuality that the 
regime will build a bomb and the goal is to delay, rather than 
force permanent verifiable dismantlement. Iran with a nuclear 
weapon or a nuclear breakout capacity would embolden Iran's 
pursuit of regional domination and could embolden the regime's 
proxies to develop comparable capabilities. It could also set 
the Middle East down a cascade of proliferation that is 
unacceptable to U.S. security, to our interests and vital 
allies, such as Israel.
    President Obama stated that if the IAEA determines that 
Iran is noncompliant, ``we will have no choice but to consider 
additional steps, including potentially additional sanctions, 
to intensify the pressure on the Iranian regime.'' Such steps 
would have to be immediate, comprehensive, and dramatic. They 
must not continue to give a pass to Russia, to China, or to the 
likes of Total, and must not be based on persuading the so-
called ``international community'' to act collectively--meaning 
agreeing to the lowest common denominator while continuing to 
cultivate ties with the regime in Teheran.
    Despite statements by outgoing Deputy Secretary of State 
James Steinberg, who told the online publication The Cable that 
new congressional legislation expanding sanctions on Iran is 
unnecessary, it is vital that Congress act to close loopholes 
identified in the current sanctions structure and compel the 
executive branch to fully and unequivocally augment the 
pressure on Iran, Syria, and their enablers.
    Last year, after a long, hard-fought struggle, the 
Comprehensive Iran Sanctions, Accountability, and Divestment 
Act was enacted. Although weaker than some of us had hoped, 
this law represents a strong step forward, especially through 
its energy, refined petroleum, and financial sanctions. This 
congressionally-driven effort has led some countries, including 
the EU, Japan, Australia, and South Korea, to finally impose 
their own, albeit more limited, sanctions on Teheran.
    Since the implementation of the 2003 Syria Accountability 
and Lebanese Sovereignty Restoration Act, my colleagues from 
both sides of the aisle and I have been calling for the full 
implementation of the menu of sanctions contained under that 
act.
    To address the growing threats and compel the Iranian and 
Syrian regimes into abandoning their destructive policies, I 
have worked with my good friend, the distinguished ranking 
member, Mr. Berman, and Congressman Sherman and Congressman 
Engel along with the other bipartisan colleagues in introducing 
legislation aimed at expanding and strengthening existing 
sanctions on Iran and Syria, and ensuring their full 
implementation and enforcement by the executive branch.
    The tools we have must be used to their maximum 
effectiveness. We must look for new means of compelling both 
Iran and Syria to stop activities that threaten our security, 
our interests, and our allies. Our policies toward both Iran 
and Syria can no longer be bifurcated but must include an 
integrated, cohesive strategy with the singular goal of 
preventing Iran's and Syria's pursuit of nuclear and other non-
conventional weapons, the missiles to deliver them, their 
sponsorship of terrorism, and other activities that threaten 
Americans, our interests, and our allies.
    Addressing these threats require tough choices. I look 
forward to receiving the testimony of our witnesses today and 
listening to their recommendations of what the United States 
can do to definitively deny the Iran-Syria axis the wherewithal 
to continue their dangerous policies.
    I am now pleased to yield to my friend Mr. Berman for his 
statement.
    [The prepared statement of Chairman Ros-Lehtinen follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Berman. Well, thank you very much, Madam Chairman. And 
you have truly convened an excellent panel on this subject. I 
look forward to hearing their testimony.
    Iran and Syria are the world's two leading state sponsors 
of terrorism and present a broad range of threats to U.S. 
policy. None of these is of greater concern, however, than 
their programs for developing weapons of mass destruction.
    We have devoted considerable time to the Iranian nuclear 
threat over the past two Congresses. It is critical we continue 
to do that. We face no greater long-term challenge to our 
national security than preventing the emergence of a nuclear-
armed Iran. And that is why I am co-sponsoring your bill, Madam 
Chairman, the Iran Threat Reduction Act, which strengthens 
sanctions on those who assist Iran's nuclear program directly 
or indirectly.
    We must be firm in our insistence that Iran meet its U.N. 
Security Council obligation to suspend uranium enrichment. We 
should seek to achieve that goal by peaceful means but with 
full awareness that in order to make our diplomacy as effective 
as possible, all options must remain on the table.
    The United States and like-minded countries must do more to 
pressure other countries to implement U.N. sanctions on Iran, 
including a state-by-state effort to upgrade legal and 
practical export controls, greater effort to identify and take 
down Iran's front companies, an institution of catch-all 
controls to prevent the export of prohibited items for Iran's 
uranium enrichment program, including those that fall just 
below control thresholds but that could be upgraded and other 
similar measures.
    On the home front, I am encouraged by recent sanctions 
imposed by the administration using the authorities established 
by Congress last year. The administration's actions have an 
important symbolic and deterrent effect, but I am still looking 
forward to the first energy-related sanctions on foreign 
companies that actually do business with the United States.
    And, as I have said before, there is significant evidence 
that Chinese companies are engaged in sanctionable investment 
activities in Iran. I would like to see those companies 
sanctioned. Many other companies and nations have ceased doing 
business with Iran at our behest. We don't want them to get the 
idea that we are not really serious about sanctions.
    As for Syrian efforts to construct an illicit and 
clandestine nuclear reactor, the decision by the IAEA earlier 
this month to refer Syria's noncompliance with its safeguards 
obligations to the U.N. Security Council was an important 
diplomatic achievement. The Security Council must take action 
to force Syria to come clean. I would like to see the 
administration pull out the stops to impose Security Council 
sanctions, though it will not be easy to overcome Russian and 
Chinese objections.
    Russia should drop its objection to the public release of 
the recently completed panel of experts who are put on the Iran 
Commission by the U.N. Security Council. The world must know 
about Iran's nefarious efforts to elude sanctions, develop even 
longer-range missiles, and provide weapons to Syria.
    I would like to say a further word about Syria in the 
context of the so-called Arab Spring. If we are honest about 
the wave of uprisings over the past few months, we have to 
acknowledge they have evoked many conflicting emotions. On the 
one hand, they certainly do appeal to our and my democratic 
convictions and our bedrock values. On the other hand, we worry 
that they may produce regimes that are not supportive of our 
interests. And at the end of the day perhaps these regimes 
won't even be democratic.
    In Egypt, for example, we are concerned that the new regime 
will be less committed to peace treaty with Israel. In majority 
Shiite Bahrain, we are concerned that a more democratic regime 
might be one that is closer to Iran, less hospitable to the 
U.S. Fifth Fleet.
    In Yemen, there is the question of whether a new and 
hopefully more humane regime would protect our counterterrorism 
interests as well as President Saleh, not protect him, protect 
our counterterrorism interests as well as he has done. He 
hasn't done much else well. Never mind.
    These are concerns, not conclusions, but they constitute 
some of the more prominent examples of Arab uprisings where 
values and interests compete for the upper hand in U.S. foreign 
policy to date. There is one Arab country, however, where I see 
in the protests the potential for remarkable merging of our 
most critical interests, our most fundamental values. That is 
Syria.
    It is clear that the Assad regime through its murderous 
crackdown on armed civilians as they relinquish most or all of 
whatever legitimacy it may once have enjoyed among the Syrian 
people. Its demise would likely lead to the achievement of one 
of our most cherished strategic goals, breaking the bond 
between Damascus, on the one hand, and Teheran and Hezbollah, 
on the other.
    That would deprive Iran of its primary base of operations 
in the Middle East and mark perhaps its first major strategic 
setback in the region. It would also mark a setback for 
Hezbollah. I don't think it would prevent Iran from arming 
Hezbollah altogether, but it would certainly make the job more 
difficult.
    To the extent the new Syrian regime wants to be part of the 
international community, it also may very well break its link 
to Sunni terrorist groups like Hamas.
    How do I know these desirable goals would be achieved with 
the fall of the Assad regime? I don't know for certain, but to 
the extent that the U.S. can influence the process, it is 
certainly worth the risk.
    I reject arguments that we are better off with Assad in 
power. As for the claim that he is the devil we know, let's 
keep the following in mind. During his tenure, there has been 
no progress toward peace with Israel. Hezbollah has emerged as 
a major regional power. Iraqi extremists have used Syria as a 
safe haven. And Iran has established a beachhead in the Middle 
East while advising and assisting Assad in his murderous 
repression of civilians.
    How much worse could the next devil be? The United States' 
ability to influence the course of events in Syria may be 
limited. We should use what tools we have and produce sanctions 
targeted at regime leaders and human rights abusers to make 
clear that our sympathies, our shared visions are with the 
victims, not the victimizers.
    The administration has taken some important steps in that 
direction in recent weeks. One of these steps--I am getting 
near the end here. I am almost done. One of these steps was the 
sanctioning last month of Cham Holding, the flagship enterprise 
of Assad's corrupt cousin Rami Makhlouf.
    We should encourage the European Union, Syria's leading 
trading partner, to follow our lead in that regard. Makhlouf 
recently claimed he is giving up his various businesses. We and 
our friends should help them do that.
    For years now, many strategists in this country have 
encouraged Syria-Israeli peacemaking for the primary purpose of 
breaking Syrian-Iranian tie and beginning the process of 
pushing Iran out of the Arab Middle East. We now have a 
historic opportunity to accomplish these goals. Even before the 
peacemaking begins, this is an opportunity we should not pass 
up.
    I yield back. Thank you.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Berman, for 
that statement.
    Mr. McCaul is recognized for 1 minute, the vice chair of 
the Subcommittee on Western Hemisphere.
    Mr. McCaul. Thank you Madam Chair. I will be very brief. 
Thanks to the witnesses for attending the hearing today. It is 
an important issue. I have always viewed Iran as one of the 
greatest threats that we have had, even prior to 9/11. And I 
look forward to the testimony. And, Madam Chair, thank you for 
holding this hearing.
    Chairman Ros-Lehtinen. Thank you, sir.
    Mr. Connolly of Virginia?
    Mr. Connolly. Thank you, Madam Chairman. And I want to 
welcome our witnesses today, particularly my old friend John 
Bolton. I was reminding him that I actually staffed his very 
first nomination hearing when he was in the Reagan 
administration a number of years ago. We are both a little 
grayer today. I want to thank you for holding this hearing.
    As we look at sort of the unfolding Arab Spring, it is 
important not to be distracted by the fact that there are other 
very serious security issues and certainly in Syria and Iran.
    I hope we will also explore the nuclear issue, not only in 
Iran, which is front and center, but also the disturbing report 
that was just issued about the now defunct Al-Kibar facility 
destroyed by Israel in Syria that seemed to have some North 
Korean links to it. The instability of both of these regimes is 
increasingly manifest, certainly in Syria but even in Iran in 
terms of the ongoing feud within that government. So I look 
forward to the testimony and our discussion.
    Thank you, Madam Chairman.
    Chairman Ros-Lehtinen. Thank you very much.
    Mr. Johnson of Ohio is recognized for 1 minute.
    Mr. Johnson. Thank you, Madam Chairman. And I want to thank 
our panel for being here today.
    You know, we face major diplomatic challenges with both 
Syria and Iran. In recent years, it has become very clear that 
the engagement process started by the administration is not 
working. Since we started that policy, Syria has maintained its 
support for terrorism, facilitated the trafficking of weapons 
to Hezbollah in Lebanon, continued to commit human rights 
violations, and repeatedly lied about its proliferation 
efforts. Similarly, Iran's support of far-flung terrorist 
activities and development of nuclear weapons have not been 
deterred by diplomatic efforts.
    The second policy of economic pressure has had some effect 
on Iran's economy working to stall economic progress in the 
hopes of curbing their nuclear efforts. We should continue 
that. And I believe we need to reevaluate our current 
nonproliferation policy in the Middle East before escalating 
pressure on Israel triggers more drastic preventive measures in 
itself.
    So I thank the panel for being here. Thank you.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Sires of New Jersey is recognized.
    Mr. Sires. Thank you, Madam Chair. And thank you very much 
for being here.
    I am also very concerned. Obviously both Iran and Syria, 
they just have no regards for international law. And they 
support terrorists at every turn. This is a concern for the 
security of this country. I am also very concerned.
    And I would like to hear about Iran. How soon do you really 
think that they can build an atomic weapon? This is a big 
concern to many people in my community. So I will look forward 
to your testimony, and I thank you.
    Chairman Ros-Lehtinen. Thank you, Mr. Sires.
    Mr. Chabot is recognized for 3 minutes as the Subcommittee 
on Middle East and South Asia chairman.
    Mr. Chabot. Thank you very much, Madam Chair. And thank you 
for calling this timely and very important hearing here this 
morning.
    I continue to be extremely frustrated with the 
administration's Syria policy. In particular, I am frustrated 
with a lot of their other policies as well, but Syria I think 
maybe most of all.
    President Obama's recent suggestion that Bashar al-Assad 
could remain in power if he makes the appropriate reforms is, 
at best, disappointing. I will leave it there.
    By ruthlessly cracking down and indiscriminately killing 
peaceful protesters, Assad has betrayed his people and has lost 
all legitimacy. No piecemeal reforms can wash away the blood on 
his hands. And, yet, the administration still refuses to say 
aloud what the entire world sees so clearly. Assad is not a 
legitimate leader.
    I have to confess that I find this lack of strength, 
clearness on the administration's part baffling. For years, 
Bashar al-Assad has allowed Syria to function as a freeway for 
terrorists.
    Countless jihadists traveling to kill American soldiers in 
Iraq entered that country via Syria. Similarly, Iranian weapons 
have flowed freely across Syria's borders and into the hands of 
Hezbollah. It is horrifying to stop and consider how much blood 
American, Syrian, Iraqi, Lebanese, and Israeli the Assad regime 
has on its hands. And, yet, we continue to confer legitimacy.
    Engagement has failed. And leading from behind is not 
leading at all. It is high time that the administration stands 
up and say what we all know to be true. Bashar must go.
    Madam Chair, I yield back the balance of my time.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Chabot.
    Mr. Higgins of New York is recognized.
    Mr. Higgins. Thank you, Madam Chair. And thank you for 
holding this hearing.
    The world is watching these countries in the Middle East 
and North Africa struggle to transition into states more 
representative of the aspirations of the people. There are no 
two more powerful forces in the world today than youth and 
technology, which is driving in large part this change. And, as 
we are seeing the calls for democratic reform in both Iran and 
Syria and Iran, despite internet censorship, Iranians are some 
of the most prolific bloggers in the world, 80 percent of the 
country is literate.
    With more than two-thirds of the population under the age 
of 30, the ability of Iran's dynamic population to plug in and 
play to the world's marketplace of ideas will continue to grow 
as a challenge to the country's autocratic regime.
    And in Syria, decades of oppressive rule have begun to fray 
as a population. As New York Times columnist Tom Friedman 
writes, armed only with cell phone cameras and access to 
Facebook and YouTube, it will grow more and more difficult for 
the willing regimes to thwart the demands of their people, the 
demands for citizenship, for civil rights, and for opportunity.
    Our foreign policy must be sensitive to these dynamic 
changes, encouraging freedom of thought and expression, 
particularly as more stable and self-determined states in the 
Middle East are likely to create a more stable world.
    I look forward to discussing these issues with the 
witnesses before us today. And I yield back.
    Chairman Ros-Lehtinen. Thank you, sir.
    Ms. Schmidt of Ohio?
    Ms. Schmidt. Thank you, Madam Chairman. I will be very 
brief.
    I am here today to listen to the experts regarding Iran and 
Syria and what our next steps should be. We cannot ignore 
either one of these countries. They are the bad actors in the 
Middle East, and they are rogue states that make it very, very 
dangerous, not just for the folks in the Middle East, but for 
those in the world, so I'm eager to listen to the panelists.
    Thank you. And I yield back.
    Chairman Ros-Lehtinen. Thank you very much.
    Now the Chair is pleased to welcome our witnesses. I would 
like to welcome back to our committee Ambassador John Bolton. I 
love John Bolton. Ambassador Bolton currently serves as a 
senior fellow at the American Enterprise Institute. His area of 
research is U.S. foreign and national security policy.
    Prior to arriving at AEI, Ambassador Bolton served as the 
United States permanent representative to the United Nations 
from August 1, 2005, to December 9, 2006. From June 2001 to May 
2005, Ambassador Bolton served as Under Secretary of State for 
Arms Control and International Security, also in the Bush 
administration. Prior to this, Ambassador Bolton was senior 
vice president of the American Enterprise Institute. Welcome 
back.
    And we also would like to welcome back Dr. Olli Heinonen. 
Dr. Heinonen is currently a senior fellow, Belfer Center for 
Science and International Affairs.
    Before joining the Belfer Center as a senior fellow in 
August 2010, he spent 27 years at the International Atomic 
Energy Agency in Vienna, with the last 5 years as deputy 
director general of the IAEA and head of its Department of 
Safeguards. He led the agency's efforts to identify and 
dismantle nuclear proliferation networks, including the one led 
by Pakistani scientist Dr. A.Q. Khan. And he oversaw its 
efforts to monitor and contain Iran's nuclear program. Welcome 
back, Doctor. Thank you.
    And, finally, the committee would also like to welcome back 
Dr. Robert Satloff. Thank you, sir. The executive director of 
the Washington Institute for Near East Policy, an expert on 
Arab and Islamic politics as well as U.S. Middle East policy, 
Dr. Satloff has written and spoken widely on the Arab-Israeli 
peace process, the Islamist challenge to the growth of 
democracy in the region, and the need for bold and innovative 
public diplomacy to Arabs and Muslims.
    We thank you, gentlemen. And, please, we will enter your 
statements into the record. And be brief or I will gavel you 
down, even the ones I love. And I like you guys, too.
    Mr. Bolton?

STATEMENT OF THE HONORABLE JOHN BOLTON, SENIOR FELLOW, AMERICAN 
 ENTERPRISE INSTITUTE FOR PUBLIC POLICY RESEARCH (FORMER U.S. 
PERMANENT REPRESENTATIVE TO THE UNITED NATIONS AND FORMER UNDER 
SECRETARY OF STATE FOR ARMS CONTROL AND INTERNATIONAL SECURITY)

    Ambassador Bolton. Thank you very much, Madam Chairman. 
Thank you for the invitation to appear before the committee, 
Congressman Berman, many old friends. I think this is a very 
important subject. I think Iran's nuclear weapons program 
remains one of the most important national security challenges 
we face. It has been trying to get nuclear weapons for close to 
20 years. And, despite in the past 10 years some very vigorous 
efforts on the part of the United States to stop it, it is now 
closer than ever.
    I just want to start by saying, you know, we all talk 
confidently about what Iran's capabilities are, what its 
centrifuges are doing, what its plans are. We are only talking, 
really, about what is publicly known. Our intelligence knows 
more, but our intelligence in Iran is far from perfect. And it 
is what we don't know about Iran's nuclear weapons program that 
particularly worries me.
    I think the evidence is clear from years of efforts at 
diplomatic resolution to the Iranian nuclear program, that that 
is not going to work. We can see that years of efforts on 
economic sanctions have failed to have a material effect on the 
nuclear weapons program.
    I am all in favor of the sanctions. I think anything that 
destabilizes the Iranian regime is a good thing because I think 
regime change in Teheran should be our national policy, but I 
don't think we can operate under the view that sanctions can 
stop the Iranian effort to achieve nuclear weapons in a timely 
way.
    Look at North Korea. It is the most heavily sanctioned 
regime on the planet. It has exploded two nuclear devices. We 
know that its nuclear weapons program continues. It has now 
admitted again, as it did 8 years ago, it has a functioning 
uranium enrichment program. It is working ahead on its 
ballistic missile programs, all the most friendless regime on 
Earth. Iran has many more resources that economic sanctions are 
not going to stop.
    So I think what this means, unfortunately, is that the most 
likely outcome as of now for Iran is that in a very short 
period of time, it is going to get nuclear weapons absent some 
dramatic step by an outsider. And I think the change that this 
will have in the world is almost impossible to calculate. I 
think it is very important to understand just what a dramatic 
step it will be if Iran crosses the nuclear weapons threshold.
    First, it doesn't have to be the case that Iran actually 
uses nuclear weapons. Simply having that capability in the 
region will have a profound effect. Imagine, for example, how 
we would have treated the breakup of Yugoslavia if Milosevic 
had had nuclear weapons. And then think of the possibility of 
weapons in the hands of the regime in Teheran.
    Second, it is a mistake to believe that American security 
guarantees to our friends and allies in the region against the 
possible Iranian program are going to provide much assurance at 
all. I think the outlook as of today is declining American 
influence in the region. I think our security guarantees are 
declining in value as well.
    Third, I think it is a big mistake to conclude, as I 
believe the administration has, that a nuclear Iran can be 
contained and deterred. The psychology of the regime in Teheran 
is very different from the psychology of the Soviet Union 
during the Cold War. It is an asymmetric threat as well. And it 
would be foolish to look forward to a world in which we are at 
the discretion of the rulers in Teheran.
    But, even if I am wrong on that and Iran can be contained 
and deterred, it doesn't stop with Iran. If Iran gets nuclear 
weapons, Saudi Arabia will get nuclear weapons. Egypt will. 
Turkey will and perhaps others. And you are going to have a 
very, very widespread proliferation of nuclear weapons in the 
Middle East.
    That is why I think we have honestly to confront the very 
unattractive alternative that absent military action against 
Iran's nuclear weapons program, Iran will have nuclear weapons 
much sooner, rather than later.
    No one likes to contemplate this possibility, but there are 
only two options that currently exist in my view. One is that 
Iran gets nuclear weapons. The other is the preemptive use of 
force against them.
    Let me just touch briefly on Syria. I recount in my 
testimony, Madam Chairman, your hearing back in September of 
'03, when I tried to warn about the interest of Syria in 
nuclear weapons. It was very controversial testimony. It was a 
very controversial issue in my confirmation hearing to be 
ambassador to the U.N. because Senator Biden and others thought 
that I had over-stressed the danger of the Syrian nuclear 
weapons program.
    I think the point was very well-handled when the Israeli 
defense forces destroyed a North Korean reactor--I underline a 
North Korean reactor--being built in Syria. We still don't know 
what else is going on there, but I think there is every reason 
to believe that Syria, Iran, and North Korea have cooperated on 
other aspects of nuclear weapons programs there as well.
    So this threat is not simply an Iranian threat. It is a 
global threat. Syria is a piece of it. And I think the United 
States underestimates this threat at its peril.
    Thank you very much, Madam Chairman.
    [The prepared statement of Ambassador Bolton follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Chairman Ros-Lehtinen. Thank you very much, Ambassador.
    Dr. Heinonen, thank you.

 STATEMENT OF MR. OLLI HEINONEN, SENIOR FELLOW, BELFER CENTER 
   FOR SCIENCE AND INTERNATIONAL AFFAIRS, HARVARD UNIVERSITY 
  (FORMER DEPUTY DIRECTOR GENERAL OF THE INTERNATIONAL ATOMIC 
    ENERGY AGENCY AND HEAD OF ITS DEPARTMENT OF SAFEGUARDS)

    Mr. Heinonen. Chairwoman Ros-Lehtinen and Congressman 
Berman, distinguished members of the committee, thank you for 
inviting me to address this hearing today.
    In my testimony, I intend to provide a snapshot of where 
the nuclear programs of Iran and Syria currently stand and 
highlight some of the key implications. Let me start with Iran.
    Iran's nuclear program is disturbingly much further down 
the road today than when its nuclear this year was first 
brought to the IAEA Board of Governors' attention in 2003. 
Before that, Iran was engaged in clandestine nuclear activities 
almost for two decades. The world discovered that Iran was 
secretly building an enrichment plant in Natanz.
    Iran's history of clandestine nuclear pursuit, continuing 
enrichment and unresolved military related questions really 
reveal a comprehensive and committed approach that puts it on 
the path to achieving nuclear weapons' capability.
    Today, the Natanz plant is an industrial sized enrichment 
facility with 8,000 installed IR-1 centrifuges. Since 2007, the 
plant has produced a total of 9,050 pounds, of 3.5 percent, 
enriched uranium. Since February 2010, Iran began enriching 
uranium to 20 percent. Two weeks ago, Iran announced that it 
will transfer production of 20 percent enriched uranium from 
Natanz to Fordow, where it plans to triple the production.
    The Fordow facility was another nuclear installation that 
Iran built in secrecy until evidence of its construction 
surfaced in September 2009. In addition, Iran has announced 
that it would be constructing up to 10 new enrichment sites, 
but has not provided details about its plans nor locations.
    The significance of these developments is several-fold. 
Although there have been also ups and downs in this nuclear 
program and delays, there will be such delays also in the 
future. But, first, given the current and planned production 
rates on its declared available uranium stock, Iran can be 
expected to possess 550 pounds of 20 percent enriched uranium 
by the end of 2012. This means that Iran would have subsequent 
uranium stocks, if further enriched and converted, to produce 
275 to 330 pounds of high enriched uranium metal.
    Iran is also moving ahead, albeit with delay, on its heavy 
water reactor program. This means being able to produce 
weapons-grade plutonium, sufficient for one nuclear device per 
year from 2014 onwards.
    Second, Iran's suspected military-related studies on: 
Special neutron sources without civilian applications, high 
explosives with precise timing, and missile re-entry vehicle 
design, alongside with the procurement, design, and 
manufacturing of nuclear-related equipment by military 
entities, add a dangerous dimension.
    Third, the possibility of secret nuclear facilities 
existing in parallel present a deeply troubling scenario.
    Now I want to turn to Syria.
    Syria's nuclear dossier was brought to public attention in 
2007, when a facility in Dair Alzour, suspected to house a 
clandestine nuclear reactor, was destroyed by aerial bombing. 
Information gathered indicates that the destroyed facility had 
a reactor design similar to that of a five-megawatt nuclear 
reactor built by the DPRK in Yongbyon.
    Apart from one restricted visit, Syria has refused to allow 
inspectors back to the Dair Alzour site. Questions remain 
concerning Syria's nuclear program. Was the destroyed reactor 
built on the Dair Alzour site the only clandestine facility? 
Are the uranium particles found in Damascus and at Dair Alzour 
a sign of more substance activities yet to be uncovered? Et 
cetera.
    The Dair Alzour reactor no longer exists, but the IAEA 
needs to know the full picture to ensure that all nuclear 
material and facilities in Syria are declared and its nuclear 
activities are peaceful. It is, therefore, not a closed book.
    Both Iranian and Syrian nuclear dossiers have been referred 
to U.N. Security Council. Subsequent Security Council 
resolutions would benefit from provisions that would oblige 
member states to provide information relating to proliferation 
activities and nuclear programs of the two countries.
    It is important that the Security Council reinforces the 
IAEA's request for full and unimpeded access to all relevant 
information, including claimed military sites or personnel.
    When it comes to the technical assessments made on nuclear 
programs, that standard cannot be compromised. In the case of 
Syria, the IAEA should have used all inspection rights it has, 
including conducting special inspection. The U.N. Security 
Council could also choose to provide wider authorities to the 
IAEA.
    Iran and Syria must be encouraged to turn to a different 
path on their nuclear programs. Iran and Syria must understand 
they bear responsibility for the choices they make and the 
consequences generated.
    Thank you.
    [The prepared statement of Mr. Heinonen follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
                              ----------                              

    Chairman Ros-Lehtinen. Thank you very much, sir.
    Dr. Satloff?

STATEMENT OF MR. ROBERT SATLOFF, EXECUTIVE DIRECTOR, WASHINGTON 
                 INSTITUTE FOR NEAR EAST POLICY

    Mr. Satloff. Madam Chairman, Mr. Ranking Member, thank you 
very much for the opportunity to appear before you today. I 
salute you for your leadership in addressing issues of vital 
concern to American national interests in the Middle East, two 
of which are no greater than the ones on our agenda today.
    It is appropriate that the committee addresses Iran and 
Syria together because these states together as the principal 
poles of the region's anti-West, anti-American, anti-peace axis 
have an organic linkage between them.
    Madam Chairman, on the technical and scientific matters on 
today's agenda, I will defer to my colleagues, who are far 
better qualified than I. I will focus for a few moments on the 
broader strategic and policy matters at hand.
    Madam Chairman, there were two great competitions that 
define the Middle East today: One, the challenge from Shiite 
Islamist supremacist ideology, led by the Islamic Republic of 
Iran; and, second, the challenge of Sunni Islamist supremacist 
ideology, led by al-Qaeda.
    Thankfully, al-Qaeda is on the decline for many reasons. 
Iran, however, still retains enormous hegemonic designs; still 
sees American policy in the region at risk; still sees American 
power waning; still has its sights on expanding its influence 
throughout the region; and, perhaps most dangerously, is still 
investing in the pursuit of nuclear weapons.
    I believe we must first recognize that the tumultuous 
events of the last several months have had the effect of 
limiting our collective attention spans to address the problem 
of Iran. There simply has been so much to attract our attention 
in Arab countries that there have not been enough hours in the 
day for our senior officials to focus on the continuing urgent 
challenge of Iran.
    Secondly, the Iranians, however, have viewed regional 
change as moving very much in their direction. Even before the 
Arab Spring, Iran counted as successes the emergence of a 
Hezbollah-dominated government in Lebanon, the ongoing control 
of Gaza by Hamas, the crushing of their own internal dissent in 
June 2009, and our expected withdrawals from Iraq and 
Afghanistan. And the last 6 months, they have seen American 
allies disappear in Egypt and Yemen and in Tunisia. They have 
seen violent tensions emerge between America and its two 
preeminent regional allies: Saudi Arabia and Israel. Only with 
the emergence of a challenge in Syria has the democratic wave 
begun to pose a threat to Iranian interests.
    Third, I believe that the direct threat posed by Iran, 
especially the nuclear aspect of this threat, is more acute 
today than before the Arab Spring. It only stands to reason, 
for example, that Iran looks at the situation in Libya and, 
through its eyes, sees what happens to a country that reaches a 
nuclear bargain with the West. It eventually gets bombed by the 
same countries with whom it reached the bargain. I am not 
criticizing our efforts in Libya. I am looking at this through 
Iranian eyes.
    The logical conclusion from the rulers in Teheran is to 
speed up their acquisition of a nuclear bomb. That is certainly 
what I would do. That is certainly what I think most 
strategists would do looking at their regional situation.
    Against this backdrop, I believe it is essential for 
America to counter Iranian ambitions with some strategic 
setbacks. There are three places where we can focus on doing 
this: One, Syria; two, Iraq; and, three, Iran itself.
    On Syria, I concur totally with the observations of the 
ranking member. This is one area, the first time in the Arab 
Spring, where our values and our interests are complementary. 
We should not withhold any effort in my view to hasten the 
demise of the Assad regime. And in my testimony, Madam 
Chairman, I list, I believe, more than a dozen very specific 
policy actions the administration could take short of using 
military force to do precisely that. This is not a moment for 
hesitance, reluctance, or caution. This is a moment to 
recognize the strategic opportunity to sever the alliance and 
to weaken Iran precisely at a moment when Iranian ambitions are 
at a height.
    On Iraq, just one sentence. The opportunity here is to 
create a new security relationship, which denies Iran the 
ability to fish in troubled waters in its neighboring country.
    On Iran itself, we should focus in two areas, Madam 
Chairman: First, making more real and believable the U.S. 
commitment to use all means necessary to prevent Iran from 
achieving a military nuclear capability.
    I believe there is considerable doubt in the minds of 
Iranians, which is what matters most, whether, in fact, we are 
committed to that objective; and, secondly, expanding our 
support for Iranian Democrats and readying the day when the 
green movement resurrects itself so that we should be ready to 
do next time what we did not do in June 2009, to be ready 
verbally and with effective action to support the potential for 
real change in that country.
    I will leave the rest of my comments for my formal remarks 
and look forward to your questions.
    [The prepared statement of Mr. Satloff follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Chairman Ros-Lehtinen. Thank you very much. Excellent 
testimony, gentlemen.
    Ambassador Bolton, under what conditions would you support 
nuclear cooperation agreements or 123 agreements with countries 
in the broader Middle East? And what criteria do you believe 
the U.S. must require to ensure that these agreements do not 
undermine our national security interests and specifically our 
efforts to counter Iran's and Syria's nuclear weapons 
ambitions?
    Ambassador Bolton. Well, I would favor 123 agreements under 
very limited circumstances, where the countries involved 
foreswear any uranium enrichment or reprocessing activities.
    If you look back, President Bush gave a speech in 2003 or 
2004 at the National Defense University where he outlined some 
of these circumstances where we could engage in that kind of 
activity. I think they need full export control regimes, 
protections against transshipments. They need to be completely 
free of any support for regimes that are engaged in state-
sponsored terrorism.
    All of these criteria, I think, and others contained in the 
legislation you and Congressman Berman have introduced to 
reform the Atomic Energy Act, which I think is an excellent way 
of declaring our intention that if we are going to see the 
spread of peaceful nuclear power, we want it done under 
circumstances that are not going to be conducive to 
proliferation. It is a very, very important point.
    Chairman Ros-Lehtinen. Thank you.
    And given the realignment of rogues, Iran, Syria, North 
Korea, what actions do you believe are necessary to cut the 
links between and end the collusion among Iran, Syria, and 
North Korea?
    Ambassador Bolton. Well, you know, this is a point that the 
State Department has struggled with in formulating our response 
to these nuclear programs because they have done it in silos, 
North Korea is an Asian problem, Iran is a Middle Eastern 
Bureau program when, in fact, we know that cooperation among 
the rogue states has been very extensive. That is one of the 
reasons President Bush used the phrase ``axis of evil.''
    On ballistic missiles, we know that since 1998, at least, 
North Korea and Iran have conducted joint research and joint 
testing. They both have the same Soviet-era Scud missile 
technology. And they are not doing it because of their interest 
in weather satellites. They are creating launch vehicles to 
deliver nuclear payloads.
    I think it will become clear ultimately that this North 
Korean nuclear reactor, a clone of the Yongbyon reactor being 
built at al-Kabir in Syria, was a joint venture with Iranian 
involvement. Iran and North Korea share the common interest of 
hiding their illicit nuclear activities from prying eyes 
internationally. What better place to hide it than in a country 
that nobody is looking, as the United States was not looking? 
We were informed of that by Israeli intelligence in the spring 
of 2007.
    So I think acknowledging these linkages and the risk of 
other linkages developing. Looking at Venezuela's extensive 
supplies of uranium in the ground, the risk is that this 
cooperation could grow.
    I think we need to use the proliferation security 
initiative even more than we do now to stop trade among the 
rogue states and nuclear, chemical, biological weapons 
technologies. I think we have simply got to apply more pressure 
on China, in particular not to facilitate trade between North 
Korea and the others. And I think we have got to make it clear 
that we are determined, in particular, to stop Iran from 
getting nuclear weapons because the record will be that North 
Korea continued and expanded its program, despite U.S. 
opposition, that Iran, over heavy U.S. opposition, succeeded in 
getting nuclear weapons. And that will be a signal to every 
other country around the world that aspires to nuclear weapons, 
that if you have the patience and the will, you can get them.
    Chairman Ros-Lehtinen. And, lastly, in the 1 minute I have 
left, as we know, there are flights from Teheran to Caracas. Do 
you believe that it would be possible for the United States to 
sanction that airline company, that carrier that is involved in 
those flights? And do you think that there are other 
opportunities for us to sanction targeted sanctions against 
Venezuela for their collusion with Iran?
    Ambassador Bolton. Absolutely. I think, as my colleague 
Roger Noriega at AEI has pointed out, this level of collusion 
between Venezuela, Hugo Chavez, and the Iranian regime is 
enormous.
    You know, Iran has probably its largest Embassy in the 
world in Caracas for purposes of evading international 
financial and other sanctions. And I worry very much about the 
developments of Venezuela and policy purchasing nuclear 
reactors from Russia and the possible introduction of a nuclear 
weapons concern in this hemisphere for the first time in many 
years.
    So I think there is a lot of work we should all be doing on 
that Venezuela-Iran connection.
    Chairman Ros-Lehtinen. Amen. Thank you very much.
    Mr. Berman is recognized.
    Mr. Berman. Well, thank you much, Madam Chair. And I thank 
the witnesses for their excellent testimony. Just to initiate, 
I would like to praise and agree with Ambassador Bolton's 
shout-out for the current head of the IAEA.
    There are some very good people at that agency who have 
been there for a long time who care about proliferation. Now 
they have a leader who lets them do their work and make 
subjective and public announcements about what is happening. 
And I think it was very useful for you to say that, and I 
appreciate it.
    I think, Dr. Satloff, in your testimony, you said it is 
time for President Obama to say that Assad lost legitimacy in 
Syria and must go.
    But let me see if the witnesses, quickly because I have 
another question, can take the opposite argument. Someone is 
saying to the President, ``Be careful. There is credibility 
here. You said that about Ghadafi.''
    The fact is the President could say that and Assad could 
remain in power. What is the implication of that? How do you 
answer the strategist who says, ``Here is the problem with 
doing that?''
    Mr. Satloff. Thank you, Mr. Berman.
    You are absolutely right. There are those people who will 
say at the first press conference after the President's 
statement, ``So what are you doing to make sure he is gone 
tomorrow? When is the Sixth Fleet going off the coast of Syria? 
When are we dropping bombs on Damascus?'' since we cannot use 
military force to achieve our objectives in every scenario.
    The administration needs to face these questions sooner, 
rather than later, and not let all our policy around the world 
be hamstrung by the inability to answer the question. We have 
to be able to say that ``Yes, we have objectives. We have 
strategies to achieve them.'' And not every objective requires 
military force to achieve its ultimate goal. We should bite the 
bullet on this now and be on the right side of what is 
something which is clearly in our national interest.
    For the first time ever, we have a convergence between 
Turks, Arabs, Israelis, Europeans, and our own national 
interest on the future of Syria. They have all come to the 
conclusion that Assad is no longer a legitimate leader. We 
should build on this convergence and face down that obvious 
question and not let the bogeyman of that question, ``When are 
you going to be forced to achieve it?,'' stand in the way of 
doing everything else, the 20-30 other items on the menu, in 
order to achieve that goal.
    Ambassador Bolton. Could I just say, Mr. Berman, we should 
have been doing this a long time ago, but there is one key 
difference in the case of Syria compared to the other Arab 
regimes, like Libya. And that is the presence of Iran's not 
only interest in preventing Assad from falling but its active 
cooperation in stopping that from happening.
    People in the Iranian Embassy are working there. We have 
reports of Iranian----
    Mr. Berman. Absolutely.
    Ambassador Bolton [continuing]. Revolutionary guards and so 
on. So this is one reason I think you have to look at the 
regime in Teheran and overthrowing that as well as Assad.
    Mr. Berman. Well, interesting answer. And I could take the 
whole 5 minutes for doing that. So let me try and get one out, 
one other question.
    Mr. Heinonen, Ambassador Bolton states that it would take--
essentially Iran would be able, citing the very respectable 
institution--I forget the full name of it, Mr. Milhollin, the 
Wisconsin Project. It would take 1\1/2\ months to enrich 
uranium to weapons-grade uranium. I had the impression it would 
take somewhat longer, 6 months to 1 year, after kicking out 
IAEA inspectors, reworking pipes, other tasks. In other words, 
we have more notice than he thinks.
    What is your reaction to what Ambassador Bolton said?
    Mr. Heinonen. Well, it depends, first of all, about how you 
define this capability and what Iran might have on top of that.
    Mr. Berman. Let's assume for a second--and I sure hope we 
don't operate on that rosy a scenario--that this is what they 
got.
    Mr. Heinonen. Well, it will take quite some time because 
they have to feed this uranium through a reconfiguration of the 
cascades, either in Natanz or in Qom now that they are building 
more. That is a limited number, IR-1 centrifuge the best in the 
world. So, therefore, I would say, as you said, something 
between 6 months to 1 year. And they had to turn it also to 
uranium metal machine, et cetera.
    So there is time, but the time is running out, as I said in 
my testimony, by the end of next year.
    Ambassador Bolton. The estimate of 1\1/2\ months obviously 
was calculated on the basis of what is publicly available 
information to the Wisconsin Center. The Nonproliferation 
Education Center estimated 2 months, so slightly longer than 
that. But I think it is important to understand that the 
technology is perfectly within the control of the Iranians, 
that it is simply a matter of the most efficient way of 
redesigning the pipes and feeding the Iranian end.
    When you get to reactor-grade levels of concentration of 
the U-235 isotope, you have done two-thirds of the work you 
need to do to get the weapons-grade. Even though the 
differences look large in terms of percentage of U-235 
isotopes, the actual amount of work is really quite small.
    Now, there are other steps, as my testimony says, including 
the fabricating of the metal and whatnot, but the Iranians, as 
we know, have continued work on a wide range of other aspects 
of this. And this, again, I want to say is only what we know. 
And you know the old adage. The absence of evidence is not 
evidence of absence.
    Mr. Berman. I am done.
    Chairman Ros-Lehtinen. That is an old adage?
    Michael McCaul, vice chair, Western Hemisphere?
    Mr. McCaul. Thank you, Madam Chair.
    I agree with you that time is running out. It has been 
running out for a while. Madam Chair, you mentioned A. Q. Khan 
and his network proliferating to Iran, Syria, and North Korea.
    Secretary Clinton testified on Iran recently. I gave her 
that, in my judgment, diplomacy with Iran as a solution to this 
problem is a naive foreign policy. I believe that they are very 
close absent a cyber attack on their centrifuges, very close to 
getting nuclear weapons.
    We can't afford a nuclear race in the Middle East. And that 
is precisely what I believe a nuclear Iran would present. And 
at the same time, we have the Arab Spring phenomenon, which, on 
one hand, brings a great promise of democracy and, yet, on the 
other hand, great threats. Middle East abhors a vacuum. And I 
believe that Iran wants to fill it.
    Ambassador Bolton, can you comment on what we can do at 
this late juncture to stop a nuclear Iran? And, secondly, 
assuming they get it, what impact would that have on this Arab 
Spring phenomenon in the region?
    Ambassador Bolton. Well, I think we are very late in the 
game. I think, in fact, it is too late to do much of anything, 
even from cyber attacks. If you look at the production figures 
for low enriched uranium from the latest IAEA report last 
month, it is up dramatically from 2009. It is up substantially 
from the report earlier this year. They are going to introduce 
more sophisticated centrifuges. They are now obviously aware of 
the possibility of cyber attack. And I don't doubt they have 
instituted countermeasures.
    I think that this proceeding toward nuclear capability is 
something that is going to proceed, even with the Arab Spring 
or maybe even accelerated by it. And it is one of the reasons 
that even the prospect of democratic change in Iran concerns 
me.
    If you imagine Iran, let's say, in the next year achieving 
nuclear weapon status but then imagining the regime falling and 
seeing the creation of a representative government there, I am 
not sure that representative government in Iran would convince 
Saudi Arabia not to get nuclear weapons if the new government 
in Iran kept theirs.
    So that this risk of proliferation triggered by an Iranian 
success in achieving nuclear weapons is an enormous, enormous 
redline to cross. And we should not underestimate it. It is not 
simply a question of one country getting nuclear weapons. It is 
a risk of half a dozen nuclear weapon states in the Middle East 
in very short order thereafter.
    Mr. McCaul. And I agree. And I also want to echo and 
associate myself with the remarks of Madam Chair on the 
Caracas-Teheran connection. That greatly concerns me. I have 
had lawmakers from Latin America tell me uranium is being 
shipped from Latin America to Iran. And that is of great 
concern.
    Let me switch to another topic that a lot of people haven't 
focused on. That is Azerbaijan. I met with Dr. George Friedman 
from Stratford yesterday. Obviously they are an ally. They are 
pro-Israel. They have been an ally in our wars in Iraq and 
Afghanistan. They are next to, close to Iran. And, yet, 
according to Dr. Friedman, they are sort of being shunned by 
the State Department in their ability to purchase military 
weapons.
    It seems to me that they are very strategically placed in 
the Middle East. And he believes this is one of the key sort of 
cornerstones in the Middle East that we are not paying enough 
attention to and needs to be stressed I think more.
    Ambassador Bolton, do you have any thoughts on that?
    Ambassador Bolton. I think our policy with respect to 
Azerbaijan does need to be modified. Obviously this is 
complicated by the conflict with Armenia and the range of 
disagreements with their internal policy there. But precisely 
for the reason that you mentioned, given Azerbaijan's access to 
Black Sea oil and natural gas assets, the importance of the 
Baku-Tbilisi-Ceyhan pipeline route, and just its geographical 
location, I think this is a place where one of these frozen 
conflicts, as they say, between Azerbaijan and Armenia needs 
more U.S. attention. I mean, I know there are a lot of things 
going on in the world, but this is in the space of the former 
Soviet Union, one of enormous strategic significance?
    I don't think we can forget what Prime Minister Putin said 
a few years ago when he was still President of Russia, that the 
collapse of the Soviet Union was the greatest geopolitical 
catastrophe of the twentieth century. I think most of us think 
it was a great way to end the twentieth century. That is 
obviously not Putin's view. And his effort, as we have seen by 
the Russian attack on Georgia, is, at a minimum, to reestablish 
Russian hegemony in the space of the former Soviet Union. It is 
very much in our interest to prevent that.
    Chairman Ros-Lehtinen. Thank you very much, Mr. McCaul.
    Mr. McCaul. Thank you.
    Chairman Ros-Lehtinen. Mr. Sires of New Jersey is 
recognized.
    Mr. Sires. Thank you, Madam Chair.
    You know, China has long been a roadblock to tougher 
international sanctions on Iran. Iran continues to use China's 
companies to procure hardware for its nuclear and missile 
programs. In the past, it seems that both administrations have 
been willing to confront China on trade issues, but they seem 
to be reluctant to confront China on this issue. How do we 
balance our interests with China and then we confront China on 
this issue where they keep assisting Iran and keep blocking any 
strong sanctions against Iran?
    Ambassador Bolton. Well, I can tell you my personal view 
that I don't think we have been strong enough with China in 
insisting that they conform to international norms and 
agreements and indeed sanctions against nuclear and other forms 
of proliferation.
    Many of the companies that we are concerned about in China 
are owned by the People's Liberation Army. And it is very 
difficult for the civilians to influence them.
    I think China's record has gotten better, but I think there 
is little question that China has been lax on dealing with the 
sanctions against North Korea, that its interest in securing 
natural resources, like oil and natural gas from countries like 
Iran, has led it to fly political cover for Iran, in the 
Security Council. And I think it is something--and I would say 
this was a mistake in the Bush administration and a mistake in 
the current administration. We have to make nonproliferation 
compliance and determination to stop it a higher priority and 
not sweep it behind other priorities, which is what tends to 
happen to them.
    Mr. Sires. Thank you.
    Dr. Heinonen, would you like to add to that? No. I am 
concerned about Venezuela. And I am concerned because many 
people come to my office, including a recent Panamanian friend 
of mine tells me how Chavez is stirring up the peasants in that 
country, in the countryside. But I am also concerned about the 
airline, Conviasa.
    People tell me that crates and crates of things from these 
airplanes come through into Venezuela and out of Venezuela. And 
I was also told that the largest Embassy in terms of personnel 
is in Caracas now from Iran. Can you comment on that?
    Ambassador Bolton. Yes. You are correct. I have heard 
exactly the same thing about the size of the Iranian Embassy in 
Caracas. And it is not because of their longstanding cultural 
ties. It is because the Iranians are using the Venezuelan 
banking system and ports and other facilities in Venezuela to 
evade sanctions.
    I think it has been a measure of substantial concern 
whether cutout companies, front companies, are being used to 
evade other sanctions, including the military sanctions, that 
have been imposed on Iran over the years and that Chavez is 
actively cooperating and assisting Iran in evading these 
sanctions.
    Mr. Sires. There are two or three flights weekly.
    Ambassador Bolton. Yes. I think those are the ones that we 
know about as scheduled, but I would worry that there are many 
more into airports and Venezuela that we are not monitoring or 
observing.
    Mr. Sires. Dr. Satloff?
    Mr. Satloff. Just one further word on this. In addition to 
the direct Iranian-Venezuelan problem, I would call your 
attention to Hezbollah activity in Venezuela. And using 
Venezuela as a base throughout Latin America, there is 
considerable clandestine activity by Hezbollah, both fund-
raising and operations. And I know that law enforcement in the 
United States is quite concerned about their ability to use 
this as a base for potential operations throughout the 
hemisphere, including here in the homeland.
    Mr. Sires. Well, this is where my conversations with one of 
the Panamanians, the concerns that they have that Chavez 
through surrogates is stirring up the interior of----
    Ambassador Bolton. Yes. There are many concerns that we 
have had about what Chavez is doing with the revenues from his 
oil production in terms of destabilizing democratic governments 
in Latin America, providing assistance to the FARC guerrillas 
in Colombia, and other things like that as well. So when you 
look at the range of destabilizing activities he is 
undertaking, even before you get to the nuclear question, it is 
something that I think we just need to take a lot more 
seriously than we do.
    Mr. Sires. I didn't mean to take away from Syria and Iran, 
but I just think it is important to have the ties that are 
being established here, Madam Chair. Thank you.
    Chairman Ros-Lehtinen. Thank you, very important. Thank 
you, Mr. Sires.
    And now I am pleased to recognize for 5 minutes Ms. Jean 
Schmidt of Ohio. And I would ask her to chair the committee for 
a few minutes. I have to return a few phone calls.
    And Ms. Schmidt and I are colleagues on a bipartisan 
congressional softball game, on a lighter note, than this heavy 
and important topic. It is a free game. You are all invited, 
Watkins Field, at 7 o'clock p.m. today. Debbie Wasserman-
Schultz and Jo Ann Emerson are our colleagues who are captains 
of the team. So come support us. And it is for breast cancer 
research.
    Ms. Schmidt of Ohio is recognized and am pleased to have 
her take over.
    Ms. Schmidt [presiding]. What the Chairlady didn't tell you 
is we are playing the press corps. So pray for us.
    On a more serious note, Ambassador Bolton, given what you 
know about Syrian nuclear programs, do you agree that we cannot 
bifurcate our policies toward Syria, Iran, North Korea, and 
their enablers?
    Ambassador Bolton. I think this is a very important point. 
I think looking at the threat of nuclear proliferation from a 
global perspective is important because we know what the 
historical linkages have been.
    We know the prospect of cooperation. And that should tell 
us that there is a lot going on that we don't fully understand. 
So that in the case of Iran, where there have been IAEA 
inspectors on the ground and some public disclosure, there is 
next to nothing out of North Korea. And in both cases, our 
intelligence is weak.
    So the prospect of cooperation on uranium enrichment, on 
ballistic missile testing and technology, on a whole range of 
activities designed to evade international sanctions, this kind 
of cooperation requires a comprehensive effort and not saying, 
``Well, North Korea is a case we deal with over here. And Iran 
we deal with over there. And Venezuela we deal with somewhere 
else.''
    Ms. Schmidt. Mr. Heinonen, do you want to add to that?
    Mr. Heinonen. I think Ambassador Bolton has raised an 
important issue here when he earlier made a reference to the 
silos. I will repeat it. I have a very simple question. Who has 
the global overview on nonproliferation? Who has a global 
overview on these activities?
    For example, IAEA is very limited because IAEA verification 
is basically based on comprehensive safeguards agreements. And 
this kind of thing doesn't exist between IAEA and North Korea. 
IAEA has instruments come from there, from Security Council.
    So we need to have somewhere a system which looks the whole 
thing in its totality and what is the connection with Venezuela 
and someone? North Korea delivered nuclear material to Libya at 
the same time Pakistan was providing technology to Libya. 
Pakistan was providing all. Technology went from Pakistan to 
North Korea and to Iran.
    So we have a very complex situation. I think that we need 
to get some kind of, I would say, global order to this. And 
then what is entirely almost out of this global picture are the 
missile programs, because there is no organization currently 
which is looking at it. However, these are interconnected. So 
we need to create perhaps a new system to tackle with this.
    Thank you.
    Ms. Schmidt. Thank you.
    Ambassador Bolton, along the same thing, would you agree 
that a holistic approach is necessary to ensure that these 
proliferators, to quote your 2003 testimony, understand that 
they will pay a steep price for their effort?
    Ambassador Bolton. Yes. I think the other would-be 
proliferators around the world are watching how we deal, in 
particular, with Iran but also North Korea. And to the extent 
that they perceive that launching into a nuclear weapons 
program brings the United States or others to the table with 
inducements, economic or otherwise, to get them to stop the 
program is itself an incentive to get into the nuclear weapons 
business.
    And the ability of regimes like North Korea and Iran to 
evade sanctions, certainly not to feel the full pain of 
sanctions shows that the cooperation among these rogue states 
is something that we have not dealt with effectively.
    So while you can't find anybody in Washington who doesn't 
agree that proliferation is a problem, the blunt reality is for 
10 years, 20 years we have talked about it a lot, but we have 
not been effective. North Korea has tested nuclear weapons. 
Iran is getting very close. Others could be on the way.
    And what that means is the number of nuclear weapon states, 
admittedly with relatively small nuclear arsenals, is 
increasing. Dr. Heinonen mentioned Pakistan, a very grave 
concern should that government fall into the hands of radicals 
or terrorists, that its substantial arsenal of nuclear weapons 
would be available for terrorism on a worldwide basis.
    So, even though we don't face the kind of civilizational 
threat that we faced during the Cold War from a potential 
exchange of nuclear salvos with the Soviet Union, the use of 
nuclear weapons as terrorist devices has to worry us. They are 
targeted against innocent civilians. That is the purpose that 
these states want the weapons. And we shouldn't underestimate 
the danger that we face.
    Ms. Schmidt. I am going to let you finish it, Mr. Satloff. 
You wanted to say something.
    Mr. Satloff. Madam Chairman, I would like to focus the 
attention for a moment on the potential for loose WMD in Syria. 
Syria has, as we know, not just a nuclear issue but chemical 
weapons program, biological weapons program. The country is in 
disarray. Leadership may crack. We don't really know what is 
going on inside the leadership of Syria.
    I would urge the United States to take a leadership 
position in organizing a contact group of interested countries 
to focus on what do we do with the potential for loose WMD in 
Syria to ensure that loose WMD does not get into the hands of 
terrorists. And this country borders the Mediterranean. This 
country borders our allies, our NATO ally, including Turkey; 
our friend Israel.
    I think this is a matter of huge importance. And I am not 
sure that adequate attention is being paid to this issue.
    Ms. Schmidt. Thank you.
    And now I am going to turn the questions over to 
Congressman Higgins from New York.
    Mr. Higgins. Thank you, Madam Chair.
    Dr. Satloff, you had indicated in your opening statement 
that the United States response to the 2009 Green Revolution 
perhaps should have been more direct and decisive. Would you 
elaborate a little bit further?
    Mr. Satloff. Thank you, Congressman.
    Yes. I would say, in retrospect, almost everyone in the 
administration would say that we missed an opportunity. We 
missed an opportunity to use our bully pulpit to more 
effectively support the aspirations of the Iranian people. We 
missed an opportunity to ensure that Iranians had the technical 
means to circumvent the Iranian Government's use of 
communications technology to break down social networks and to 
stop the flow of information among the opposition.
    We didn't use our technical means to prevent Iranian 
interference with satellite activity. There are all sorts of 
things that we chose not to do.
    I would hope that we are better prepared when I believe the 
Iranian people are going to rise up again.
    Mr. Higgins. We read recently that there are deep fissures 
within the Iranian leadership between Ayatollah Khamenei, the 
supreme leader, and that of President Ahmadinejad.
    Some have argued that a stronger response--and this has 
been going on for some time, including the revolutionary guard. 
It is a generational divide in many respects. But some have 
argued that a stronger American response in 2009 would have 
helped to coalesce those forces back together because we are 
viewed as a larger enemy than the enemy than the enemy within. 
You reject that I presume?
    Mr. Satloff. I think it is apples and oranges, Congressman. 
I think that the division between the supreme leader and the 
President is a structural phenomenon of how the Islamic 
republic is created.
    It has one leader, the supreme leader, who is appointed by 
God, as it were, and the other who gets elected by mere people. 
And the one who gets elected by mere people has two terms. They 
expire at the end of 8 years, as he is now approaching the end 
of his second term, as is the case with the previous two 
Presidents, Khatami and Rasanjani.
    The differences emerge between the God-appointed and the 
human-appointed leader. This is just part of the system. It has 
nothing to do with the United States, I am afraid to say.
    Mr. Higgins. Ambassador Bolton, you had talked about Iran's 
nuclear weapons program. And you expressed concerns not only 
about what is publicly known, but what is not publicly known 
should really concern us.
    Iran and North Korea, economic sanctions don't appear to be 
working. A nuclear Iran cannot be contained or deterred. Are 
you advocating for a U.S. military action to destroy Iran's 
nuclear capabilities?
    Ambassador Bolton. Yes. I have argued for that for about 
3\1/2\ years. I think that the only real alternative now is 
that Iran gets nuclear weapons. And I advocate that course, not 
happily, not because I am enthusiastic about it but because I 
think the alternative of a nuclear Iran is so much more 
dangerous for us and for our friends and allies in the region, 
that having seen all of the other options for dealing with the 
Iranian nuclear weapons program failed, that is what we are 
left with.
    Mr. Higgins. If such action was taken, what would be the 
regional consequences relative to the Middle East?
    Ambassador Bolton. Well, I think there are two basic 
questions. First, how would Iran itself respond? And, then, 
second, what would some of the other countries do? I think the 
fact is the Arab regimes in the region would welcome the 
destruction of Iran's nuclear weapons program.
    They fear it as much as we do or Israel does, but they 
appreciate that they don't have the capability to do anything 
about it. They would certainly criticize us or criticize Israel 
if Israel were to undertake such a strike. They would criticize 
us publicly, but they would welcome it privately.
    The issue of how Iran would respond is obviously a crucial 
element of the calculus. And it is one we can't know with 
certainty. But I have looked at this very carefully. And I 
think that Iran is unlikely to do anything that would bring it 
into direct confrontation with the United States beyond the 
destruction of the nuclear program itself.
    I think Iran's most likely response would be to unleash 
Hezbollah, in particular, and possibly Hamas as well for rocket 
attacks against Israel. I think that would certainly be their 
response if it were Israel that did the attack. And that 
obviously puts at risk civilian populations.
    This is not a pleasant alternative, but it is a lot less 
pleasant to look at a future where Iran has nuclear weapons.
    Mr. Higgins. Thank you. And I will yield back.
    Ms. Schmidt. Thank you. And now we will recognize Mr. 
Duncan from South Carolina for 5 minutes for questions.
    Mr. Duncan. Thank you. And, Ambassador Bolton, thank you 
for being here today. I followed your career with a lot of 
interest and admiration over the years, and I want to say thank 
you for your service to our country.
    First and foremost, I would like to delve into the 
connection between Iran and al-Qaeda a little bit more because, 
really, the links go back to the early 1990s with the Quds 
force and al-Qaeda, go back to the Khobar Towers bombing in 
Saudi Arabia and a lot of links there. The 9/11 Commission 
report detailed a lot of those connections.
    And concurrently with support from a state sponsor like 
Iran, al-Qaeda would be in a better position than ever to 
strike both the West and our allies and from that chaos in both 
the Arab world and south Asia.
    What should the United States be aware of with that 
relationship? And what threat do you see from al-Qaeda with 
regards to Iran?
    Ambassador Bolton. Well, certainly Iran has for many years 
been the world's central banker for international terrorism. 
And it is a funder and an armor of terrorists pretty much on an 
equal opportunity basis: Hezbollah; Shia; Hamas, which Iran has 
funded and armed; Sunni. The Iranian regime has funded 
extremists in Iraq who have attacked American forces, but they 
have also funded their once-sworn enemy, the Taliban, in 
attacking NATO forces in Afghanistan.
    So I don't think we really know what the connection is, but 
I think just as a target of opportunity, it is obviously 
something to worry about because the common enemy is the United 
States.
    Even if there is no connection at all, obviously the risk 
of al-Qaeda itself getting nuclear weapons I think is something 
we have to consider. It has been an objective of al-Qaeda 
almost since its inception. And to me it is the continuing 
perfect storm that terrorists of whatever stripe do get weapons 
of mass destruction and use them against the United States or 
our friends and you have 9/11 on a dramatically more damaging 
scale.
    Mr. Duncan. On a different line of questioning because I am 
very interested in the Muslim Brotherhood and the Arab Spring 
and what is going on with the rising democracy or move for a 
democratic self-governance within the Arabian Peninsula, 
northern Africa, it is my opinion and I am asking if you agree 
with me that the Muslim Brotherhood is pushing for a more 
democratic style government so they will have a seat at the 
table. And they can continue to grow their influence toward 
other things.
    Ambassador Bolton. Well, I think that is certainly their 
objective. I think it is very hard to project what comes out of 
the changes that we have seen in different parts of the Arab 
world. You know, in Egypt today, we still have a military 
government. And that military government has brought Hamas and 
the Palestinian Authority together.
    It has opened the border between Egypt and Gaza Strip and 
allowed Hamas to have full communications with the Muslim 
Brotherhood, which is, in effect, its corporate sponsor. This 
government in Egypt has recognized the regime in Iran for the 
first time since 1979. Leading figures in the regime as well as 
candidates for President have called into question the Camp 
David Accords.
    So I think we are in a very dangerous period ahead. And I 
don't think that we can project on a straight line what 
organizations like the Muslim Brotherhood or others did from 
the past into the future because with the repression of the 
Mubarak era released, that they could move in any of several 
different directions.
    They could become legitimately democratic or they could 
become far more radical from a religious point of view. And 
that is why I think with conditions so uncertain we have to 
really be very worried about the future of the Camp David 
Accords under any new Egyptian Government and what effect that 
would have in Jordan and to the security of Israel and our 
other friends in the region more broadly.
    And when you lay over all of that uncertainty, the 
continuing, indeed growing risk of Iran's nuclear weapons 
program, I think that conditions are right for more turmoil, 
more risk, more potential trouble in the region than at any 
time in decades.
    Mr. Duncan. Thank you, sir. And I yield back.
    Chairman Ros-Lehtinen. Thank you very much.
    Mr. Payne, the ranking member on the Subcommittee on 
Africa, Global Health, and Human Rights, is recognized.
    Mr. Payne. Thank you very much. I wonder what our 
assessment of the IAEA is currently, whether it is really 
strong enough. I do remember that during the Bush 
administration, we did watch inspections, which Saddam Hussein 
prevented IAEA to have the opportunity to inspect properly.
    However, I do recall that when Hans Blix was finally given 
the opportunity by Saddam Hussein, although albeit late knowing 
that they had no weapons of mass destruction in Iraq, although 
all of our experts, Cheney and Rumsfeld and Bush and yourself, 
were convinced that there were weapons of mass destruction.
    And, of course, we ordered the IAEA to leave Iraq at the 
time that the Saddam Hussein regime said they could go anywhere 
they wanted to know because they, of course, knew they had no 
weapons of mass destruction nor did they have biological or 
chemical weapons. However, we ordered the IAEA out and then, of 
course, went on to have the attack on Iraq. And then we did 
finally conclude that there were no weapons of mass 
destruction. And, of course, we got rid of a bad guy. It cost 
us an awful lot.
    I wonder if anybody could tell me about your opinion of 
IAEA at this time and its effectiveness. Evidently it's not 
what we would like it to be because this Ambassador Bolton said 
that the way to deal with Iran, of course, is to blow up their 
facilities. I wonder if that is a permanent solution or whether 
they may have an alternate site where they are developing the 
weapon at some other site that we may not have determined and 
that to destroy one may not end the problem.
    So I just wondered if anybody had any comments. Of course, 
Ambassador Bolton certainly could comment on anything that I 
have mentioned and that I have said since I referred to him and 
his administration. We have had these discussions before.
    Ambassador Bolton. Right. Well, Congressman, I would love 
to get back into a discussion of Iraq. I will just say one 
thing on that score. One reason we believe Saddam Hussein had 
weapons of mass destruction because after the first Persian 
Gulf War, he declared to the United Nations that he had massive 
supplies of chemical weapons, which he never proved to the 
U.N.'s satisfaction that he had destroyed. And, actually, I am 
not aware of anybody before the second Persian Gulf war who 
didn't believe that Saddam had massive amounts of chemical 
weapons. That turns out not to be true, for whatever reason, 
but I don't remember before the war anybody doubting that his 
claims of those stocks were accurate.
    On the IAEA itself, I think, as Congressman Berman noted,--
and I appreciate his mentioning it--I think under the 
leadership of the new director general, Yukiya Amano, that 
there is a real chance that the IAEA can have the more 
prominent role in anti-proliferation activities that we hope 
that it should.
    The IAEA has always been a different kind of U.N. 
specialized agency. It has a unique relationship with the 
Security Council. And it is one we should foster.
    I think it has been historically the case that the IAEA's 
inspectors, like Dr. Heinonen and others, have been straight 
shooters. They have tried to report the facts as they have been 
able to find them out. Our trouble has been more at the top 
level. I think that problem is now corrected. I certainly hope 
so. And I certainly look forward to supporting the IAEA in its 
efforts, particularly on Iran.
    Mr. Payne. Thank you very much. My time has just about 
expired, but we do recall that we did know that Iran, Iraq had 
biological and chemical weapons because we supplied them. They 
never had the capacity to make them themselves according to the 
report that I have seen. And I just wonder whether that is true 
or not that they had----
    Ambassador Bolton. It's not true. Now, we did not supply 
Iraq with biological or chemical weapons. Their programs were 
known before. The question was before the attack what level of 
stockpiles that the Iraqis had.
    Chairman Ros-Lehtinen. Thank you.
    Ambassador Bolton. And their declarations on the chemical 
weapons side, in particular, were very extensive. U.N. weapons 
inspectors asked repeatedly to see the stockpiles and to see 
them destroyed. And the Iraqi regime repeatedly said, ``We have 
destroyed the''----
    Chairman Ros-Lehtinen. Thank you so much.
    Ambassador Bolton. [continuing]. ``But we are not going to 
let you see where.''
    Chairman Ros-Lehtinen. Thank you.
    Mr. Chabot, the Middle East Subcommittee chair, is 
recognized.
    Mr. Chabot. Thank you, Madam Chair.
    Mr. Satloff, if I could begin with you first? I was in the 
region recently. One of the countries we were in, among others, 
was Saudi Arabia. I am interested in relative to Saudi Arabia 
and Iran. The Saudis believe quite strongly in fear that Iran 
is slowly but certainly encircling them and that there are 
Iranian influenced entities, terrorist organizations, and 
otherwise; in Egypt, for example, the warming relations between 
Egypt and Iran, Yemen, Bahrain, others, and that that is one of 
their real threats. Are they correct in that belief that they 
have?
    Mr. Satloff. I think that the Saudis are absolutely correct 
to take with the utmost seriousness the Iranian effort to 
encircle them and to erode first American strength in the Gulf 
and eventually to compel Saudi Arabia to recognize Iranian 
hegemony in the Gulf.
    The Saudis view what is going on in Yemen as an opportunity 
for Iran to be trouble-making via the Houthis. The Saudis view 
what happened in Bahrain as an Iranian exercise. I think to a 
certain extent the Saudis exaggerate the Bahrain situation. The 
Bahrain situation was legitimately overwhelmingly a domestic 
opposition movement for more pluralistic society, but the 
Iranian effort to take advantage of this is real. And, most 
importantly, I think the Saudis doubt America's staying power, 
but America is not evincing toward the Iranians the view that 
we are truly committed to stop your nuclear program, that we 
are truly committed to roll back your intentions to expand your 
influence, that we are truly committed in Lebanon, truly 
committed in Syria, truly committed in Iraq. I think the 
Saudis' view is that we are without a clear strategy to counter 
Iran's hegemonic designs.
    And, therefore, you see this fundamental tension between 
Washington and Riyadh today. It is not over some symbolic 
issue. It is over a very real difference.
    Mr. Chabot. I tend to agree with you. And, despite some of 
the administration have kind of poo-pooed Saudi's belief in 
that, I think there is a lot of legitimacy in that belief and 
the threat that Iran plays toward Iran and the rest of the 
region.
    We have such limited time. Mr. Ambassador, if I could turn 
to you next? You said a couple of things that really struck me, 
and maybe you could expound upon them a little bit. One, you 
said that our security guarantees our declining. And I assume 
what you mean is that other countries, perhaps some that are 
relying upon the United States or what ultimately if they ally 
themselves with us or they cooperate with us, in some 
countries' mind, that may be not necessarily the smartest thing 
to do in their view. Could you talk about that a little bit?
    Ambassador Bolton. Right. The idea that some have advocated 
is that for the Gulf Cooperation Council nations; for example, 
the six Arab members of that organization, that if we gave them 
guarantees that we would protect them against Iran's use of 
nuclear weapons, that that would help create a system of 
deterrence in the region that would mitigate against the risk 
of Iran once it gets nuclear weapons.
    I think that is, number one, a pretty minimal kind of 
guarantee. I mean, are we saying we are prepared ourselves to 
engage in hostilities with Iran if they use nuclear weapons or 
threaten them against the Gulf countries, number one? And, 
number two, I think for the Gulf countries themselves, they are 
not inclined at this point to believe the security guarantee 
when they see essentially a withdrawal of America from Iraq; 
substantial drawdown in Afghanistan; and, as Dr. Satloff 
mentioned, an inability over a sustained period of time to deal 
with the Iranian terrorist of nuclear weapons threats to begin 
with?
    Mr. Chabot. Let me shift to one other gear, if I could. I 
have only got real limited time. You had also said that absent 
some I think you said significant step or some action or 
something from an outsider, Iran will get nuclear weapons. I 
tend to agree with that. I think that the sanctions and all of 
this stuff is just a way to kick it down the road and that they 
are bound and determined and they are going to do it unless 
there is some action.
    And I don't have much time for you to respond, but any 
quick response you want to give?
    Ambassador Bolton. I agree.
    Chairman Ros-Lehtinen. Sorry.
    Mr. Chabot. Thank you.
    Chairman Ros-Lehtinen. That's good. Thank you so much.
    Mr. Engel, my good friend, the Subcommittee on the Middle 
East and South--no--the ranking member on the Subcommittee on 
the Western Hemisphere? You switched regions on me. And I am 
still thinking of you in that area. Thank you.
    Mr. Engel. Well, thank you. Thank you, Madam Chair. And, of 
course, you and I did good work together passing the Syria 
Accountability Act many years ago. And we now have joint 
legislation against Syria again.
    Ambassador Bolton, it is good to see you again. I remember 
the time we visited the United Nations and appreciate your work 
and Mr. Heinonen and Mr. Satloff as well. Thank you. Thank you 
very much.
    When we sat down and did the Syria Accountability Act back 
in 2003, I noted that the State Department's list of terrorist 
countries that support terrorism included Syria. And it was a 
charter member of that list since 1979, when that list came 
through. And, yet, it was renewed every year as a charter 
member. And we continued to have normal diplomatic relations 
with Syria.
    Frankly--and I question some of the administration 
officials here--I couldn't understand why we sent our 
Ambassador back to Syria. I didn't think that their behavior 
was warranted for us to send an ambassador back.
    It seems to me, you know, we made a decision to go into 
Libya. And I supported that decision. But I think Syria is 
worse than Libya, quite frankly.
    Libya is a large country. Ghadafi is out of his mind. And, 
granted, he is a bad player and the Arab League did say that 
they wanted to get rid of him. But when you look at what Assad 
has done, you look at the fact that Lebanon, which had a war 
with Israel not long ago, and part of the agreement to end that 
war was that the weapons that Hezbollah had would not be 
replenished and, yet, Hezbollah has many, many more weapons 
today than it did before. And obviously those weapons came from 
Iran through Syria. And Syria is the closest ally with Iran.
    So I just don't understand why we are turning our heads the 
other way when it comes to Syria. And I wonder, Ambassador 
Bolton, if you could comment on that.
    Ambassador Bolton. Well, I largely agree with that 
analysis. I was at the U.N. when we negotiated the cease-fire 
resolution to bring to a conclusion the Summer 2006 war between 
Israel and Hezbollah. And central parts of that resolution 
involved pushing Syria further out of Lebanon and demarcating 
the border, making sure Syria wasn't supplying weapons to 
Hezbollah and Iran as well.
    And the fact was that we were trying to use the 
opportunity. At least that is where we started out, not only to 
buttress the Cedar Revolution in Lebanon but to apply pressure 
to the Assad regime in Syria as well. And we just simply did 
not follow through on that. And that has been a mistake. And we 
can see it in spades now given the violence against innocent 
civilians that is an Assad family tradition in Syria.
    Mr. Engel. Let me ask you something else. Back in 2007, 
during the Bush administration, it was generally felt that Iran 
was obviously producing weapons, nuclear weapons. And there was 
talk about the administration taking out Iran's facilities.
    And then there became a national intelligence estimate, 
which said essentially, falsely obviously, that Iran had 
stopped its nuclear weapons programs in 2003 and, therefore, 
all the steam seemed to go out of the Bush administration. At 
least that is the way it appeared to me in terms of confronting 
Iran.
    You know, we would have been better off confronting them 
earlier. It is harder now. Can you tell me about that and what 
your feeling is about that because I think that was a disaster?
    Ambassador Bolton. Well, I think that NIE was the most 
politicized intelligence estimate probably in the history of 
our intelligence services. It did real damage to the focus on 
Iran. And it was inaccurate when it was written.
    I give an example in my testimony of reports about the 
Parchin facility in Iran, an artillery and armor base where 
they were doing testing on simultaneous detonation 
capabilities. In the Fall of 2004, reported by ABC News, it was 
live testing going on then, the only purpose of which was to 
create the capability to explode a nuclear device.
    So I think that there were factual mistakes in that 
estimate. I think it was politicized. I think it has done 
enormous damage. And I don't think we have operated for quite 
some time on the basis that it is accurate. And it certainly 
was not.
    Mr. Engel. Thank you.
    Mr. Satloff, let me ask you this. I have been frustrated 
with Saudi Arabia because obviously they could be more helpful 
in terms of the Middle East peace process and help bring the 
Arab countries over. Iran is obviously a major threat to Saudi 
Arabia. One of the Saudi royals was saying the other day that 
they thought that Saudi Arabia would try to bring down the 
price of oil in order to hit Iran in the pocketbook.
    Why isn't Saudi Arabia doing more to help us bring the 
Iranian regime down or at least stop the nuclear weapons 
program vis-a-vis reaching out to Israel?
    Chairman Ros-Lehtinen. And that is an excellent question 
that will be answered at a later time. Thank you.
    Mr. Engel. Madam Chair.
    Chairman Ros-Lehtinen. Mr. Rohrabacher, the Subcommittee on 
Oversight and Investigations chair.
    Mr. Rohrabacher. Thank you very much, Madam Chairman.
    On April 8th of this year, Iraqi troops stormed into Camp 
Ashraf, which is on the Iraq-Iran border, and massacred unarmed 
Iranian expatriates who were residents of that camp. This, in 
and of itself, was criminal activity. I mean, as a crime 
against humanity or at least a murder of those 35 unarmed 
people. And I would say the wounding of at least 100 others is 
a crime.
    But does this also, Mr. Bolton, indicate that Iran is 
having undue influence on Iraq? Here we did all of this we 
could do to create a democratic Iraq. And then they are under 
the tutelage of Iran? Because obviously the slaughter of these 
people, these unarmed people, in Camp Ashraf was done to the 
benefit of Iran.
    Ambassador Bolton. Well, I think it is very troubling what 
happened, as you mentioned, what the Government of Iraq did 
there. I am aware also that they refused to allow U.N. and 
other members of a congressional delegation to visit Camp 
Ashraf in the past couple of months.
    Mr. Rohrabacher. That was my delegation. Yes.
    Ambassador Bolton. I just couldn't believe that they did 
that. And I do think that there are many signs of Iran's 
efforts to increase its influence inside of Iraq and very 
troubling and inadequate the responses by the current 
Government of Iraq.
    So that as our forces leave, here is a good example. We 
gave protection to the refugees at Camp Ashraf. Our military 
disarmed them, took their pledges of renunciation of terrorism, 
and believe they cooperated with us in a range of things.
    General Hugh Shelton, former Chairman of the Joint Chiefs, 
has said publicly the MEK aided us before the invasion of Iraq. 
So it is a very troubling history.
    Mr. Rohrabacher. Yes. And I suggest that we, Madam 
Chairman, keep an eye on this. We will be holding a hearing 
with my Subcommittee on Oversight and Investigations of this 
committee, into the massacre at Camp Ashraf.
    Let me just note that, Mr. Satloff, your remarks were a 
breath of fresh air. I will just have to say I am tired of 
being the only one who is suggesting this strategy that you 
seem to be advocating today. That is an active promotion of 
democratic movements as a means to achieve ends, foreign policy 
ends, very similar to the Reagan doctrine, who we were 
supporting those who were fighting against Soviet tyranny 
during the Reagan years.
    When we were talking about Syria and Iran, let me just 
underscore the point that you made was so important for us to 
understand. Yes, we are supporting democracy except when it 
really, when the crisis, is upon us.
    And aren't you disappointed that the United States, your 
testimony indicates that, we don't seize the moment to fight 
for what we believe in or at least help those who are fighting 
for democracy but we sort of step back at a time of crisis in 
order to let history run its course? Is this the way you 
identify that, as I do?
    Mr. Satloff. Well, I appreciate your kind words, 
Congressman. Thank you very much.
    I do see in Syria and Iran enormous strategic opportunities 
for the United States. These are places where our values and 
our interests are synonymous. We don't have to make the choice. 
We don't have to wring our hands, as we did perhaps with Egypt, 
where we might have regretted the loss of a peace process 
partner but cheered the Democrats. Here we will lose an 
adversary and gain democracy.
    Mr. Rohrabacher. During the Cold War era, again, Reagan did 
this with the Soviets. We ended the Cold War without having a 
confrontation with the Soviet Union.
    On another subject, let me just say over the years I have 
depended on the IAEA for information and found it a good source 
of information, although not necessarily a good source for 
policy. Why is it that when you take a look at North Korea and 
Pakistan and Iran, you know, obviously these are--everyone has 
complained about that, but, again, my colleague mentioned 
earlier it's China who is behind all of these people.
    I mean, if we are so gutless that we cannot bring up the 
Chinese relationship in this type of proliferation to these 
countries, we are going to have this proliferation. It is going 
to continue. And I would hope that we start paying attention to 
the role that China is playing. North Korea----
    Chairman Ros-Lehtinen. Thank you.
    Mr. Rohrabacher [continuing]. Didn't develop these on its 
own. Neither did Pakistan. And neither is Iran. China is 
playing a horrible role.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Rohrabacher. Thank you, Madam.
    Chairman Ros-Lehtinen. Thank you, Mr. Chairman. And I have 
raised the attack on Camp Ashraf directly with Secretary of 
State Clinton, with the Iraqi authorities, with the U.N. High 
Commissioners, Commissioner for Refugees, and Ranking Member 
Berman and I have worked together and will continue to do so to 
ensure the safety of the residents of Camp Ashraf. And we thank 
you for being here with us today.
    So pleased to yield time to my Florida colleague, 
Congressman Deutch of Florida.
    Mr. Deutch. I thank you, Madam Chair. And thanks to all of 
you for being here this morning.
    Dr. Satloff, current sanctions law allows the State 
Department alone to determine whether to investigate and 
whether to sanction companies involved in the energy sector of 
Iran. Process can often lead and, in fact, does to diplomatic 
relations, potentially trumping national security concerns, 
particularly when it comes to these Chinese companies.
    It is estimated that more than 100 Chinese companies 
operate in Iran currently. And, in fact, in February, the 
President of Iran's petroleum engineering and development 
company was quoted as saying that ``China will invest $2.5 
billion in developing the South Azadegan Oil Field that 
straddles the border with Iraq.''
    If we are unwilling to sanction these companies, what 
leverage do we have with the Chinese?
    Mr. Satloff. Well, first of all, I agree very much with 
your assessment of the problem, Congressman. What I would urge 
to complement our efforts on sanctions or beyond the need to 
actually pursue this is to go to the Chinese with the choice. 
And this means working with the Saudis to be a larger 
diplomatic actor in this arena, to go to the Chinese with a 
choice: Do business with us or do business with Iran. And if 
the Saudis were willing to make that choice, to put the choice 
to the Chinese, then we might actually get a greater Chinese 
cooperation vis-a-vis Iran.
    But because we go back to the earlier problem of Saudi 
disagreement with the United States or reluctance or disbelief 
in our commitment vis-a-vis Iran, we don't get full cooperation 
from the Saudis on what they might be willing to do vis-a-vis 
China either.
    So I think we need to go back to a more serious discussion 
with the Saudis to get them to engage and compel the Chinese to 
make a choice: Business with us or business with the Iranians?
    Mr. Deutch. So is there additional leverage that the United 
States has? The suggestion of the Saudis putting the choice to 
them I understand, but is there additional leverage that we 
have?
    Mr. Satloff. Sure. Within the larger context of U.S.-
Chinese relations, I would like to see this administration 
raise this level, raise this issue much higher on the ladder of 
our agenda.
    Nonproliferation I would like to think this President views 
as one of his very top priorities. If that is the case, then 
there are things that we should be willing to play with in the 
U.S.-Chinese relationship in order to get China to be far more 
cooperative on the Iranian issue.
    Mr. Deutch. Dr. Heinonen, I know you may have touched on 
some of these I am told, but I just would like to confirm. You 
spent 20 years with IAEA. An awful lot of that time was spent 
focused on Iran's nuclear ambitions. Can you give us your 
assessment from the latest report, particularly Iran's 
increased production of high enriched uranium, their claim to 
have faster, higher update and faster centrifuges?
    You spoke earlier apparently about breakout. And there 
seemed to be some slight disagreement between you and 
Ambassador Bolton on how long that might be.
    My question really is not just how long it would take if 
they choose to break out but how likely it is that we would 
know.
    Mr. Heinonen. Thank you. First of all, I think that we have 
a little bit of disagreement with Ambassador Bolton only 
because whether they use current centrifuges or the ones which 
we may not know they have. So the number differs.
    Mr. Deutch. And, again, I understand that, if I may, from I 
think the perspective of most of us here, whether it is, in 
fact, 1 year or 1\1/2\ months, should they choose to do it, 
there is no reason to view either of those as less urgent.
    Mr. Heinonen. So the known centrifuges are almost all the 
time under the control of IAEA. So if they manipulate the 
sensitive cascades, the international community knows it 
roughly in 2 weeks time that the IAEA has a program provided 
that the Secretariat takes the action and informs its Board of 
Governors.
    There are unannounced inspections. There are cameras. There 
are seals. Once they are compromised, these pictures will 
report it. So we know subsequent of a situation very fast.
    Mr. Deutch. But we can know there are additional facilities 
like Qom, right?
    Mr. Heinonen. Yes. That is where the unknowns are. And that 
is where probably we have also some differences in those 
numbers. And that is what has happened now during last I would 
say 4 or 5 years with Iran, since they suspended the 
implementation of the additional protocol, that knowledge of 
international community about the nuclear program of Iran has 
come down while their capabilities are ramping up. So these two 
things go in the wrong direction.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Heinonen. That is the dilemma.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Fortenberry, the vice chair of the Subcommittee on 
Africa, Global Health, and Human Rights, is recognized.
    Mr. Fortenberry. Thank you, Madam Chair. Gentlemen, thank 
you for coming today. I appreciate your testimony.
    Ambassador Bolton, given that sanctions seemingly are not 
slowly significantly the march toward Iran's nuclear ambitions 
and their capability, we appear to be drifting toward a de 
facto containment policy should they obtain weapons. Can you 
unpack what that scenario looks like?
    Unfortunately, I read through your statement, but I didn't 
have the last point. The paper wasn't stapled to it. You said 
it is significantly different from the containment policies in 
the Cold War. Can you elucidate on what that scenario would 
look like?
    And then the parallel question is I would like all of you 
to just project out based upon the current trajectory of the 
situation what this is going to look like in 5 years.
    Ambassador Bolton. Well, I think the differences between an 
Iran with a relatively small number of nuclear weapons and the 
Soviet Union during the Cold War cover a variety of grants. I 
was just giving one example there. They have got a different 
view of the value, the relative value, of life in the hereafter 
versus life here on Earth. That is one thing that----
    Mr. Fortenberry. So do you think that religious value would 
beg the potential uses of a nuclear weapon?
    Ambassador Bolton. I think it is a very different calculus 
than the communist in Moscow in the Cold War who, whatever else 
you want to say about them, were atheists and thought they were 
only going around once and weren't all that enthusiastic about 
throwing it away.
    But the real problem is the logic of deterrence itself, 
which, however successful it may have been as we understand the 
Cold War better, we can see how risky it was and how nearly on 
any number of occasions it didn't work. When you have got an 
asymmetric threat, in particular, a threat that could be aimed 
not at the United States but at a friend or ally of the United 
States, that calculus is even harder.
    So that the perception that Iran has or is very close to 
nuclear weapons would give them a leverage in the Middle East 
that would completely undo the existing framework we have. And 
I think that is something that should undermine our confidence 
in our ability to contain and deter a nuclear Iran.
    But an even more fundamental point is if I am wrong about 
that, it doesn't stop with Iran. And when other countries, like 
Saudi, Egypt, Turkey, and maybe others, have the prospect of 
getting nuclear weapons, then you are in a multi-polar nuclear 
Middle East where, you know, in the Cold War, it was a bipolar 
deterrence at work. In a multi-polar environment, it is 
inherently far more dangerous and unstable.
    Mr. Fortenberry. I basically knew what you were going to 
say before I asked the question, but I think it is important to 
paint that scenario.
    Dr. Satloff, you had mentioned that you believe the Iranian 
people will rise again. And it is related to your point 
earlier, Ambassador Bolton, that the only prospects here from 
your perspective on stopping this is a military intervention or 
an imminent regime change.
    A lot of us have placed a great deal of hope in 
anticipation and a lot of encouragement through this committee 
and in other places in the hands of good Iranian people who are 
simply seeking a new form of governance that is consistent with 
their tradition of justice.
    How real do you think that is now, though?
    Mr. Satloff. I think that the prospects are better today 
than they were a year ago for the very simple reason that 
Iranians are looking at what is going on elsewhere in the 
Middle East. The idea that not just friends of the United 
States, Egyptians, Tunisians arising up but friends of Iran, 
Syrian people. I think the Syrian model is hugely powerful and 
will have a major impact on whether the Iranian people 
themselves choose this path. And that is another reason why 
this is a strategic opportunity for the United States to help 
bring about change in Syria, which will help trigger change in 
Iran.
    Mr. Fortenberry. Short of those two objectives, military 
intervention of some kind and a regime change through a rising 
of the people, Mr. Deutch was pointing out the other leverage 
points that we may have. All of this tends to focus on our 
efforts. And, yet, we sometimes don't think about these 
leverage points.
    You said, ``Let's tell the Chinese: Business with us or 
business with Iranians?'' I think that is great. The problem 
here is we basically have shifted so much manufacturing 
overseas to them they make the stuff. Wal-Mart sells the stuff. 
They have the cash. And they buy our debt.
    So this completely dysfunctional relationship that we have 
with China does not empower us to actually ask them for 
leverage in helping us against Iran. We are almost supplicants.
    Mr. Satloff. Actually Congressman, I was referring rather 
specifically to what we hope the Saudis would do, which is the 
Iranians are----
    Mr. Fortenberry. I'm sorry. I didn't----
    Mr. Satloff [continuing]. In deep search for oil resources.
    Mr. Fortenberry. Yes.
    Mr. Satloff. If the Saudis would say, ``Business with us or 
them?'' that would hurt the Iranians greatly. The Saudis would 
provide all of the oil resources the Chinese need.
    Mr. Fortenberry. But clearly there are linkages to China 
here as well that we could potentially leverage. And I'm sorry. 
I mixed the point up. Thank you.
    Chairman Ros-Lehtinen. Thank you very much.
    Mr. Sherman, the ranking member on the Subcommittee on 
Terrorism, Nonproliferation, and Trade, is recognized.
    Mr. Sherman. I want to comment briefly on Mr. Fortenberry's 
comments. I mean, an Iran with nuclear weapons is not only 
terrorism with impunity and this has been pointed out an end to 
the nonproliferation regime.
    I am old enough to have lived through the Cuban missile 
crisis, where you had a confrontation of two, military 
confrontation of two, hostile nuclear powers. We have gunboats 
versus American destroyers in the Persian Gulf from time to 
time. And I would hate to have one of those be a confrontation 
between two hostile nuclear powers, in part because we rolled 
the dice once with the Cuban missile crisis. I don't want to do 
it again in my lifetime. But also Khrushchev was considerably 
saner than the Iranian regime.
    And then, of course, we dream, as Mr. Satloff does, of an 
uprising, but it may not come this year. It may come 5 years 
from now.
    Ambassador Bolton, if there really were 2 million people on 
the streets of Teheran in Shallah and if this regime was going 
to be swept out of power, would they act like Gorbachev, shrug 
their shoulders and walk off the world stage, or would they go 
out with a bang?
    Ambassador Bolton. Well, I think they demonstrated in the 
aftermath of the fraudulent elections in the summer of 2009, 
they are prepared to kill the stay in power. And I think that 
is what is going on in Syria as well. So I think it----
    Mr. Sherman. Are they prepared to use nuclear weapons 
against Israel in order to perhaps regain popularity in Iran or 
are they willing to use nuclear weapons against the United 
States if they feel that, ``Well, they are going out anyway. 
They might as well go out that way''?
    Ambassador Bolton. You know, I don't honestly know the 
answer to that question, but, as you suggested, I would rather 
not find out. That is why I think it is so critical, so 
critical to stop the regime in Teheran from getting these 
weapons to begin with.
    Mr. Sherman. Ambassador, the MEK is still on the terrorist 
list. Should they be? Why are they still on the terrorist list? 
You have some understanding of the inside of the State 
Department. And over the last 15 years, has the MEK done more 
to help American security or to hurt American national 
security?
    Ambassador Bolton. It has done more to help American 
security, particularly on the nuclear weapons front I know of 
my own personal knowledge. And I can say this. I think the 
State Department is now under a court order to revisit the 
terrorist designation.
    And I think they should and should do it promptly. I think 
whether it's a designation of a foreign terrorist organization 
or a state sponsor of terrorism, the State Department has got 
to look at the facts and let the facts fall where they may. And 
political considerations, one way or the other, should not 
enter into it.
    MEK was put on the terrorist list and kept on the terrorist 
list on several occasions in the hopes of getting friendlier 
diplomatic response.
    Mr. Sherman. How is that working out?
    Ambassador Bolton. It has not worked out. So let's look at 
the facts. Let's let the chips fall where they may. And if they 
don't deserve to be on the list, let's not let political 
considerations keep them there.
    Mr. Sherman. I want to commend you for your comments on the 
infamous NIE and then ask you about a license that is pending 
in the Obama administration. And, unfortunately, it is very 
close to being issued. I believe the ranking member and 
chairwoman have joined me in trying to stop this. And that is a 
license to GE to repair the engines on the civilian Iranian 
aircraft.
    If we repair those engines, can we be confident that the 
planes will not be used to take weapons to Assad or Hezbollah?
    Ambassador Bolton. Certainly not. You know, I opposed those 
licenses back in 2002 and 2003. I guess they are just 
persistent people. But I was against granting them then. I am 
against granting them now.
    Mr. Sherman. Should we be providing money or weapons to 
dissident elements in Syria?
    Ambassador Bolton. I think we should be providing whatever 
assistance they think would be helpful to them. And I would 
have done this on both an overt and covert basis going back 
years. And I would say the same with respect to Iran.
    Mr. Sherman. Mr. Satloff, do you have any comment on that?
    Mr. Satloff. In my testimony, I suggested the establishment 
of humanitarian zones on each of Syria's borders that would be 
a base with which we could work with the Syrian opposition. If 
what they need are materiel, then let's provide materiel. If 
what they need are just goods, let's provide the goods. All of 
their neighbors want to help. We should be there for them.
    Mr. Sherman. Are you talking humanitarian assistance or the 
tools to overthrow the Assad regime?
    Mr. Satloff. If they are looking for the tools, then we 
should help provide them. I think that what they are looking 
for most of all, Congressman, are not the weapons but the 
communications tools.
    The best weapon that the Syrian people are using in their 
fight against the regime is YouTube. And we should provide them 
the means to circumvent the Syrian Government's efforts to 
repress information in the country.
    Mr. Sherman. Thank you.
    Finally I want to comment on how important it is that we 
sanction Chinese companies for their business in Iran because 
if we don't, not only do they take up the slack in Iran, but 
our European friends get very angry that the sanctions are not 
putting pressure on Iran. They're just shifting the business 
opportunity to Beijing.
    Ambassador Bolton. Could I just say on that----
    Mr. Sherman. Yes.
    Ambassador Bolton [continuing]. When I was Under Secretary, 
we sanctioned a lot of Chinese companies. And it provoked howls 
of outrage from the State Department but also from China. It 
had a very important effect because it focused Chinese 
attention on things that were happening that sometimes I think 
the central government didn't necessarily have control of. I 
wish we had sanctioned China more.
    Chairman Ros-Lehtinen. Thank you very much.
    Mr. Burton, chairman of the Subcommittee on Europe and 
Eurasia?
    Mr. Burton. Thank you, Madam Chairman--Chairwoman. Excuse 
me. I always get that wrong.
    Mr. Bolton, good seeing you again, Ambassador. I watch you 
on television quite a bit. You are saying what I think. And I 
feel like I am helping write your speeches. So I just want you 
to know I agree with----
    Ambassador Bolton. I take all the help I can get, 
Congressman. Thank you very much.
    Mr. Burton. First of all, my big concern is the United 
States energy policies. Right now we still get somewhere around 
30-35 percent of our energy from the Middle East. And if Iran 
continues with their nuclear program--and I read today where 
Ahmadinejad has said that they are not afraid to make a nuclear 
weapon.
    If they continue to do that with their goal, stated goal, 
to destroy Israel, what is your view on what might happen? Do 
you think Israel would take a first strike action against Iran 
before they had a weapon that could be delivered to Israel? And 
if so, how would that affect the United States energy policy?
    Ambassador Bolton. Well, it certainly has been Israeli 
policy up until now not to permit hostile states to get 
capacities that would put them in the vicinity of nuclear 
weapons. That is why they bombed the Osirak reactor out of 
Baghdad in '81. That is why they bombed the North Korean 
reactor in September of '07. They have allowed Bushehr to go 
into operation. The Iranians are building a heavy water 
reactor, heavy water production facility at Arak. And obviously 
their uranium enrichment program is well underway.
    I obviously don't know what the Government of Israel is 
going to do, but based on their past performance, faced with 
that kind of existential threat, it wouldn't surprise me.
    Mr. Burton. Well, I guess that is the concern that many of 
us have in the Congress that if that were to occur, there might 
be a real widespread conflict over there involving other 
countries. And that could bottle up maybe the Persian Gulf or 
the Suez Canal. And we would be right hip deep in there to get 
the energy we need to survive as a nation.
    Syria. I read in my notes here that they are getting 
chemical weapons from Iran. Is that correct? And if so, how do 
we deal with that? Because that again is a weapon of mass 
destruction. I wish my colleague Don was still here because 
those were weapons that were in Iran, at least we thought, 
Iraq, we thought when we first went in there.
    Ambassador Bolton. Well, there is no doubt that both Iran 
and Syria have active chemical weapons programs. Whether they 
are working together or not at this point I don't know, but 
that wouldn't surprise me at all. Syria is one of the few 
countries that has used chemical weapons against its own 
citizens. And as long as they have that capability, it should 
be a concern of ours.
    Mr. Burton. Well, it is pretty obvious to me that Iran and 
Syria have been working together. They have been a conduit for 
Hezbollah's and Hamas' weapons going through there. And, as I 
recall, Hamas still has headquarters in Damascus. So they are 
working hand in glove. So it really concerns me.
    I would like to just make one more comment. I have heard a 
number of you mention that we ought to use the Saudis or have 
the Saudis put pressure on Iran. The Saudis are business 
associates of ours. We buy our oil from there. But they 
continue to support the establishment of madrassahs, not only 
in the Middle East but around the world. And those madrassahs 
are teaching radical Wahhabism. And that is a threat to the 
entire world.
    So if we are putting our confidence in the Saudis to work 
with us, I think we need to do that with a jaundiced eye 
because so far they certainly haven't stopped their expansion 
policy with the madrassahs.
    I had one more question here. The ballistic missile program 
of Iran, they have short-term missiles now. How far along are 
they with intercontinental ballistic missiles? And how likely 
is it that they would have the ability to deliver a missile to 
the United States at any time in the future?
    Ambassador Bolton. Well, they just recently launched their 
second satellite. The first was in 2009. That is a critical 
demonstration that they have got ballistic missile 
capabilities. The real issue for them and for North Korea is 
whether they can downsize the nuclear device into a warhead-
sized package or increase the thrust of their rocket 
capabilities to put the two together and deliver it over the 
long distances.
    But we know that both countries have been working hard on 
this for a long time. And reports concerning North Korea, in 
particular, are very troubling about their Taepodong 2 
capabilities, which I think we have got to assume, at least in 
part, have been shared with Iran.
    So they are working from both ends perfecting the nuclear 
device, downsizing it, and increasing their rocket 
capabilities.
    Mr. Burton. Let me make just one comment regarding regime 
change in Syria. I sincerely hope that the administration if 
they decide to take any military action, that it comes to 
Congress first.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Burton.
    Mr. Connolly of Virginia?
    Mr. Connolly. Thank you, Madam Chairman.
    A question for all three panelists. What should we 
understand is going on internally in the Iranian Government 
right now in terms of the public feud between Ahmadinejad and 
the so-called supreme leader?
    Mr. Satloff. Congressman, I think the public feud is a 
reflection of the fact that President Ahmadinejad's second term 
is coming to a close. And as it is coming to a close, Khamenei 
is exerting his authority, reminding people who the true 
supreme leader is, preparing for the next Presidential election 
to ensure that throughout the political system in Iran, they 
know who will be determining who the next President will be. So 
we are seeing clerics that for the last several years might 
have been edging toward Ahmadinejad because of his popularity 
now jumping ship from him knowing that Khamenei is the true 
source of power in this country.
    There isn't a divide on policy vis-a-vis the United States. 
One of them is not arguing to negotiate the nuclear agreement 
with the United States because out of a different ideological 
view, I think this is much more having to do with the 
distribution of power in the future next election and 
Khamenei's continuing control over that political system.
    Ambassador Bolton. I agree with that. I would just add one 
thing. I think in the past few years, there has been a shift of 
power toward the revolutionary guards in a variety of ways: 
Economic power. Certainly they control the nuclear weapons 
program. And I think part of the struggle that is playing out 
is the role of the revolutionary guards and whether indeed they 
are moving toward not just the theocracy, which they have now, 
but a kind of militarized theocracy. And I don't think that is 
finished. I don't think that power shift is finished yet.
    Mr. Heinonen. And I believe that not very much will change 
in the nuclear program for a very simple reason, that when Iran 
started the last program in 1985-87, the President of the 
country was Khamenei. And the prime minister was Mousavi. So 
they both are the founding fathers of the current nuclear 
program.
    Mr. Connolly. And would you agree with your two colleagues 
on the panel that we should read this as jockeying for 
reassertion of dominance as pretty much an internal political 
thing in Iran with no significance in terms of shifting of form 
of government or policy? I am asking you, Mr. Heinonen. Mr. 
Heinonen?
    Mr. Heinonen. I think that the way I see--I am not the 
policy person, but the way I see is that one of the few things 
which unifies Iran today is the nuclear program. It is a 
patriotic program. And they have seen in the last 8 to 10 years 
that it has brought the impact to the world states. And, 
therefore, I believe that they continue on this line, and they 
will be very unified.
    Mr. Satloff. I do want to concur with the thrust of 
Ambassador Bolton's comment, which is that the Iranian regime 
is becoming more narrowly and narrowly militarized with less 
and less popular support. Even as it exerts control as it 
smashes dissent, it relies on a narrower and narrower base of 
support.
    It is still powerful. It is still in control of the 
country. But this is not the regime that can bring millions of 
people into the streets to chant ``Death to America'' as it did 
20-30 years ago. The support is much narrower than ever before.
    Mr. Connolly. Does that suggest, Mr. Satloff, that there is 
long-term an instability built into that form of government, 
that regime, that, sooner or later, may manifest itself?
    Mr. Satloff. Absolutely. Just as there was a fundamental 
instability built into the Soviet system, there is fundamental 
instability built into the Iranian system. Our job is to hasten 
the decline so we don't have to wait 70 years, as we did with 
the Soviets.
    Mr. Connolly. How do we hasten the decline?
    Mr. Satloff. Well, here one way is to try to roll back 
Iranian successes. And I suggested in my testimony how to do 
that in Syria and Iraq and elsewhere.
    Secondly, I think that the projection of American power so 
that Iranians are convinced that we will use it to prevent 
their acquisition of a nuclear weapons capability is itself the 
key ingredient to a peaceful resolution.
    Here I have a somewhat disagreement with Ambassador Bolton. 
I don't think we yet have the test of whether the Iranians have 
had to make the choice because I don't think the Iranians are 
yet convinced that there is a significant price to pay for them 
approaching the line. Once they are convinced, then we will 
have the test.
    Mr. Connolly. Thank you very much. Thank you, Madam 
Chairman.
    Chairman Ros-Lehtinen. Thank you. Excellent questions, Mr. 
Connolly.
    And we are so pleased to have had you gentlemen as our 
witnesses. It really was an enlightening committee hearing. And 
we thank you for taking the time to be with us.
    And, with that, the committee has adjourned.
    [Whereupon, at 12:17 p.m., the committee was adjourned.]
                                     

                                     

















                            A P P E N D I X

                              ----------                              


              Material Submitted for the Hearing Record Notice 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


[Note: Responses to these questions were not received prior to 
printing.]

                                 <all>

</pre></body></html>
